App. 1
APPENDIX A
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

RICHARD D. SIMMONS,
Claimant-Appellant
v.
ROBERT WILKIE, SECRETARY OF
VETERANS AFFAIRS,
Respondent-Appellee
-----------------------------------------------------------------------

2019-1519
-----------------------------------------------------------------------

Appeal from the United States Court of Appeals
for Veterans Claims in No. 16-3039, Chief Judge
Margaret C. Bartley, Judge Michael P. Allen, Senior
Judge Robert N. Davis.
-----------------------------------------------------------------------

Decided: July 17, 2020
-----------------------------------------------------------------------

KENNETH M. CARPENTER, Law Ofﬁces of Carpenter
Chartered, Topeka, KS, argued for claimant-appellant.
ASHLEY AKERS, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
Washington, DC, argued for respondent-appellee. Also
represented by ETHAN P. DAVIS, TARA K. HOGAN, ROBERT
EDWARD KIRSCHMAN, JR., BARBARA E. THOMAS; JONATHAN
KRISCH, Y. KEN LEE, Ofﬁce of General Counsel, United

App. 2
States Department of Veterans Affairs, Washington,
DC.
-----------------------------------------------------------------------

Before MOORE, CLEVENGER, and CHEN, Circuit
Judges.
CHEN, Circuit Judge.
Richard D. Simmons appeals a decision from the
U.S. Court of Appeals for Veterans Claims (Veterans
Court), afﬁrming the decision of the Board of Veterans’
Appeals (Board) denying Mr. Simmons’s claim for compensation for a service-connected psychiatric disorder.
The Veterans Court held that, even though the Board
incorrectly stated that the presumptions of soundness
and service connection did not apply to Mr. Simmons’s
claim, that error was harmless because it did not affect
the basis of the Board’s denial of the claim. On appeal,
Mr. Simmons argues that a failure to apply an evidentiary presumption is per se prejudicial. Because we
agree with the Veterans Court that the failure to apply
the presumptions of soundness and service connection
is not per se prejudicial, we afﬁrm.
BACKGROUND
We begin by discussing the pertinent background
law.
I. Presumptions of Soundness and Service Connection
Veterans are entitled to compensation from the
Department of Veterans Affairs (VA) if they develop a

App. 3
disability “resulting from personal injury suffered or
disease contracted in line of duty, or for aggravation of
a preexisting injury suffered or disease contracted in
line of duty.” 38 U.S.C. §§ 1110 (wartime service), 1131
(peacetime service). To establish a right to disability
beneﬁts, a veteran must show: “(1) the existence of a
present disability; (2) in-service incurrence or aggravation of a disease or injury; and (3) a causal relationship
between the present disability and the disease or injury incurred or aggravated during service.” Shedden
v. Principi, 381 F.3d 1163, 1166–67 (Fed. Cir. 2004).
As to the second requirement, whether a disability
was incurred or aggravated during service, Congress
provided for a special evidentiary rule known as the
presumption of soundness, set forth in 38 U.S.C. § 1111
(wartime service):
For the purposes of section 1110 of this title,
every veteran shall be taken to have been in
sound condition when examined, accepted,
and enrolled for service, except as to defects,
inﬁrmities, or disorders noted at the time of
the examination, acceptance, and enrollment,
or where clear and unmistakable evidence
demonstrates that the injury or disease existed before acceptance and enrollment and
was not aggravated by such service.
See also 38 U.S.C. § 1132 (peacetime service). When no
preexisting disorder is noted in the veteran’s paperwork upon entry into service, any medical problem
arising during service is presumed to have occurred

App. 4
during service. Holton v. Shinseki, 557 F.3d 1362, 1367
(Fed. Cir. 2009).
Another statutory presumption relevant to the
second requirement is set forth in 38 U.S.C. § 105(a),
which creates a presumption that an injury or disease
incurred by a veteran during active service was incurred in the line of duty and not caused by any veteran misconduct. 38 U.S.C. § 105(a) states:
[a]n injury or disease incurred during active
military, naval, or air service will be deemed
to have been incurred in line of duty and not
the result of the veterans own misconduct
when the person on whose account beneﬁts
are claimed was, at the time the injury was
suffered or disease contracted, in active military, naval, or air service, whether on active
duty or on authorized leave, unless such injury or disease was a result of the persons own
willful misconduct or abuse of alcohol or
drugs.
Neither the presumption of soundness nor the presumption of service connection, however, is relevant to
the third requirement, in which the veteran must show
that the in-service injury or disease is causally related
to the veteran’s current disability. Holton, 557 F.3d at
1367.
II.

Mr. Simmons

Mr. Simmons served in the U.S. Navy from 1968
to January 1970. Throughout his time in service, Mr.

App. 5
Simmons experienced feelings of depression and homesickness. In April 1969, a VA physician diagnosed Mr.
Simmons with a laceration of the left wrist and situational depression but no permanent disability. In December 1969, another VA physician diagnosed him
with immature personality disorder and recommended
he be discharged. Mr. Simmons was discharged the
next month.
On September 13, 1972, Mr. Simmons submitted a
claim for a non-service-connected pension for polyarthritis. In December 1972, the VA awarded Mr. Simmons the requested non-service-connected pension
and rated the polyarthritis claim as similar to rheumatoid arthritis. In June 1974, Mr. Simmons submitted a
claim for additional compensation, asserting that his
arthritis was service connected and that he also had a
nervous condition that justiﬁed compensation. J.A. 49.
The VA conducted a medical examination, at which Mr.
Simmons complained of severe joint pain and nervousness. The VA diagnosed Mr. Simmons with arthritis
and a nervous condition with depressive features as a
result of said arthritis. J.A. 50. In September 1974, the
VA regional ofﬁce (RO) denied Mr. Simmons’s claim for
service connection for arthritis and a nervous condition with depressive features; the VA found no evidence that the arthritis stemmed from Mr. Simmons’s
service and that his nervous condition was a by-product of his non-service-connected arthritis and not causally related to any of his diagnoses in service. J.A. 49.
Because Mr. Simmons never perfected an appeal to the
Board, the RO’s decision became ﬁnal.

App. 6
Over the subsequent years, Mr. Simmons at various points sought to re-open his claims for arthritis
and a nervous condition, which the VA denied each
time. On December 21, 2005, after having received a
total disability rating for an unrelated asbestosisbased claim, Mr. Simmons ﬁled a claim that there was
clear and unmistakable error (CUE) in the RO’s 1974
rating decision, but only with respect to the denial of
service connection for his nervous condition. There, he
argued that if the VA had considered the presumptions
of soundness and service connection set forth in 38
U.S.C. §§ 105(a) and 1111, respectively, he would have
been awarded disability compensation for his nervous
condition.
In 2016, the Board denied Mr. Simmons’s request
for revision of the RO’s 1974 decision because it was
not a product of CUE, ﬁnding instead that Mr. Simmons’s current psychiatric disorder was due to his
non-service-connected arthritis and not related to any
mental health condition suffered in service. Moreover,
the Board found that the presumptions of service and
soundness in 38 U.S.C. §§ 105(a) and 1111 did not apply.
Mr. Simmons appealed the Board’s failure to apply
the two presumptions to the Veterans Court. In September 2018, the Veterans Court afﬁrmed the Board’s
decision and found that although the Board erred in
analyzing the two statutory presumptions when it
found no CUE in the RO’s 1974 decision, that error was
harmless because Mr. Simmons’s current disability
was not causally related to his inservice condition.

App. 7
Simmons v. Wilkie, 30 Vet. App. 267 (2018). The Veterans Court explained that, under 38 U.S.C. § 7261(b)(2),
it is “statutorily required to consider whether those errors prejudiced him.” Id. at 2770. It then ruled that the
error in this case “is not an inherently prejudicial error,
although it may nevertheless be prejudicial in a particular case.” Id. at 283.
Mr. Simmons timely appealed to our court in January 2019. We have jurisdiction pursuant to 38 U.S.C.
§ 7292(c).
DISCUSSION
We review legal determinations of the Veterans
Court de novo. Prenzler v. Derwinski, 928 F.2d 392, 393
(Fed. Cir. 1991).
As previously mentioned, the Veterans Court determined that the Board’s failure to apply the two presumptions, although incorrect, was harmless because
Mr. Simmons failed to prove the third requirement
necessary for the receipt of beneﬁts—the so-called
“nexus” requirement. See Holton, 557 F.3d at 1366. Mr.
Simmons asks us to overturn the Veterans Court’s decision and apply a per se rule of prejudice when either
the RO or the Board fails to apply the two presumptions. For the reasons that follow, we decline to adopt
such a rigid, categorical rule.
The Supreme Court’s analysis in Shinseki v.
Sanders guides our ruling in this instance. 556 U.S.
396 (2009). In Sanders, the Supreme Court rejected as

App. 8
not “consistent with the statutory demand” this court’s
prior rule of a presumption of prejudice whenever the
VA failed to provide a claimant the notice required by
38 U.S.C. § 5103(a). Id. at 406. Instead, under 38 U.S.C.
§ 7261(b)(2), the Veterans Court must “take due account of the rule of prejudicial error,” which “requires
the Veterans Court to apply the same kind of harmlesserror rule that courts ordinarily apply in civil cases.”
Id. (internal quotations omitted).
In rejecting a per se presumption of prejudice, the
Supreme Court explained that this court’s per se rule
“differ[ed] signiﬁcantly from the approach courts normally take in ordinary civil cases” in three ways. Id. at
407. First, such a rule would require the reviewing
court to ﬁnd prejudice even if that court conscientiously determined that the error had not affected the
outcome. Id. Second, the rule placed “an unreasonable
evidentiary burden upon the VA.” Id. at 408–09. Third,
a rigid rule requiring the VA to explain why the error
is harmless would conﬂict with Supreme Court precedent placing the burden of establishing prejudice on
the party that seeks to have a judgment set aside. Id.
at 409–10. Thus, when determining whether an error
affected the outcome of the case or was harmless, the
Court has “warned against courts’ determining whether
an error is harmless through the use of mandatory presumptions and rigid rules rather than case-specific
applications of judgment, based upon examination of
the record.” Id. at 407.
Mr. Simmons’s proposed rigid, per se rule is clearly
foreclosed by § 7261(b)(2) and the reasoning in

App. 9
Sanders. Contrary to Mr. Simmons’s view, nothing in
Sanders’s disapproval of per se rules for harmless error
analysis suggests that it is constrained to the context
of “notice errors.” Likewise, § 7261(b)(2)’s mandate for
the Veterans Court to “take due account of the rule of
prejudicial error” applies to all cases under the jurisdiction of the Veterans Court and is not limited to notice errors. Mr. Simmons’s proposed rule also presents
the same three problems the Supreme Court identiﬁed
in Sanders. We therefore hold that a per se rule of prejudice is not appropriate here, for the same reasons that
it was not appropriate in Sanders.
Such a per se rule of prejudice when the RO or
Board fails to apply the two presumptions also would
be inconsistent with our case law. We have held that
the presumptions of soundness and service connection
are not relevant to the third requirement for establishing entitlement to disability beneﬁts—the nexus requirement. Dye v. Mansﬁeld, 504 F.3d 1289, 1292 (Fed.
Cir. 2007) (stating that the presumption of soundness
cannot ﬁll the gap where the veteran failed to show a
causal relationship between his in-service and postservice medical problems); Holton, 557 F.3d at 1367
(holding that neither the presumption of soundness
nor service connection are relevant to the question of
whether the in-service injury or disease is causally related to the veteran’s current disability). A per se rule
of prejudice for failure to apply the two presumptions—which are relevant to the second requirement
and not the third, nexus requirement—would also
undo any proper VA ﬁnding that the claimant had

App. 10
failed to establish a causal nexus. Such an expansion
of the effect of these two statutory presumptions would
be inconsistent with Dye and Holton.
Accordingly, we decline to alter the Veterans
Court’s harmless error framework by adding a per se
rule of prejudice with respect to the presumptions of
soundness and service connection. Instead, as the Supreme Court has instructed, the Veterans Court should
apply the “same kind of harmless-error rule that courts
ordinarily apply in civil cases.” Sanders, 556 U.S. at
406 (internal quotations omitted). Because that is the
rule that the Veterans Court applied here when it
evaluated whether Mr. Simmons had been prejudiced
by the Board’s failure to apply the two presumptions
in light of the facts and circumstances of the particular case, the Veterans Court correctly followed
§ 7261(b)(2).
CONCLUSION
We have considered Mr. Simmons’s remaining arguments and ﬁnd them unpersuasive. Accordingly, the
appeal from the ﬁnal judgment of the Veterans Court
is
AFFIRMED
COSTS
No costs.

App. 11
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR VETERANS CLAIMS
No. 16-3039
RICHARD D. SIMMONS, APPELLANT,
v.
ROBERT L. WILKIE,
SECRETARY OF VETERANS AFFAIRS, APPELLEE
On Appeal from the Board of Veterans’ Appeals
(Argued April 25, 2018

Decided September 20, 2018)

Kenneth M Carpenter, of Topeka, Kansas, for the
appellant.
Mark D. Gore, with whom Meghan Flanz, Interim
General Counsel; Mary Ann Flynn, Chief Counsel; and
Kenneth A. Walsh, Deputy Chief Counsel; and Joshua
L. Wolinsky, Appellate Attorney, all of Washington,
D.C., were on the brief for the appellee.
Before DAVIS, Chief Judge, and BARTLEY and
ALLEN, Judges.
BARTLEY, Judge: Veteran Richard D. Simmons
appeals through counsel a May 13, 2016, Board of
Veterans’ Appeals (Board) decision that found that a
September 1974 regional ofﬁce (RO) rating decision
denying service connection for an acquired psychiatric
disorder did not contain clear and unmistakable error
(CUE). Record (R.) at 2-19. This matter was referred to
a panel of the Court principally to address the Court’s
harmless error analysis framework post-Sanders,

App. 12
particularly in the context of reviewing Board decisions on CUE motions. Shinseki v. Sanders, 556 U.S.
396 (2010). We hold that, although the Board erred in
analyzing two statutory presumptions when it found
no CUE in the 1974 decision, that error is harmless
because it did not affect the essential fairness of the
adjudication or the Board’s ultimate determination
that the 1974 RO decision did not contain CUE; therefore, the Court will afﬁrm the May 13, 2016, Board decision.
I.

BACKGROUND

Mr. Simmons served on active duty in the U.S.
Navy from November 1968 to January 1970. R. at 43.
Upon entry into service, he denied “frequent trouble
sleeping,” “frequent or terrifying nightmares,” “depression or excessive worry,” and “nervous trouble of any
sort.” R. at 119. In a contemporaneous examination, a
service physician documented a normal clinical examination with no noted psychiatric symptoms. R. at 12122.
In April 1969, Mr. Simmons was hospitalized for
two days for psychiatric observation following a suicide
attempt. R. at 127-29. Upon admission, he requested
medication for “nerves,” and the service clinician provided diagnostic impressions of “depressive reaction”
and “attempted suicide.” R. at 127-28. The hospital discharge summary reﬂects that Mr. Simmons had “a long
history of ‘nerve’ problems . . . [with] several episodes
of ‘home sickness’ and depression since coming aboard

App. 13
[the ship] in November [1968].” R. at 129. The service
clinician diagnosed “situational depression.” Id. Mr.
Simmons remained depressed and under observation
for 48 hours until “he received a letter from home [at
which point h]is spirits lifted measurably and he was
discharged to duty.” Id.
In December 1969, following unsuccessful attempts at obtaining a hardship discharge, Mr. Simmons was referred for neuropsychiatric evaluation due
to frequent feelings of depression and “inability to adjust to Naval life.” R. at 130. The service clinician documented a moderately depressed mood, appropriate
affect, clear sensorium, intact memory, and logical and
coherent thought processes. Id. The clinician asserted
that Mr. Simmons had “no evidence of psychosis”; he
diagnosed Mr. Simmons with immature personality
disorder and recommended administrative discharge
due to unsuitability. R. at 130-31. The January 1970
service separation examination report reﬂects a normal clinical examination with no noted psychiatric
symptoms. R. at 106-07.
In September 1972, Mr. Simmons sought non-service-connected pension beneﬁts. In December 1972, a
VA RO granted pension beneﬁts due to polyarthritis of
multiple joints. R. at 69-70.
In June 1974, Mr. Simmons requested disability
compensation for rheumatoid arthritis, stating “there
is a reasonable presumption that my rheumatoid arthritis condition was manifested as a direct result of
my mental depression in service and culminated in my

App. 14
administrative discharge.” R. at 52. In an attached
statement, Mr. Simmons’s private hematologist opined
that “it is a reasonable presumption that the illness
manifested as mental depression during [service] is
the same illness now manifested as arthritis involving
multiple joints.” R. at 49. He added that “it [is] likely
that the chronic disorder [Mr. Simmons] now has was
present at the time of his military service.” Id.
Upon VA examination in August 1974, Mr. Simmons reported current symptoms of severe pain, weakness, weight loss, loss of appetite, nervousness, sleep
disturbances, and stiffness. R. at 1453. Following medical examination, the examiner diagnosed rheumatoid
arthritis. R. at 1456. Upon psychological examination,
Mr. Simmons stated that while he was overseas, he felt
tense, nervous, and homesick, causing him to drink excessively. R. at 1457. He denied in-service hospitalization except for acute intoxication. Id. He stated that he
“got along alright after service[,] although he felt a little nervous at times,” he worked regularly for almost 2
years at a Dupont plant until he developed rheumatoid
arthritis, and that rheumatoid arthritis has been progressive since then, involving more joints and constant
medication. Id. He further stated that he “feels tense
and nervous most of the time and this is worse when
[there is] more pain in his joints” and attributed some
insomnia, depressed mood, and decreased concentration to increased physical symptoms. Id. Following examination, the examiner diagnosed “anxiety reaction
with depressive features, moderate only, secondary to
arthritic condition.” Id.

App. 15
In September 1974, the RO denied service connection for rheumatoid arthritis and a nervous condition.
R. at 1448-49. The RO found no evidence that Mr.
Simmons experienced chronic neurosis during service
and noted that he was administratively discharged
due to immature personality disorder. R. at 1449. Likewise, the RO found no evidence that Mr. Simmons experienced arthritis during service or within one year
following service. Id. The RO concluded that neither
the arthritic condition nor the anxiety reaction was
incurred during service, and that the currently diagnosed anxiety reaction was not related to the immature
personality disorder that resulted in his separation
from service. R. at 1448. Mr. Simmons ﬁled a Notice of
Disagreement (NOD) with the September 1974 RO
decision, but did not perfect an appeal to the Board
following issuance of a Statement of the Case (SOC).
In 1977, Mr. Simmons successfully ﬁled to reopen
his claims for service connection, but they were again
denied in an unappealed April 1977 RO decision.1 In
1

The Court notes that in August 1995, Mr. Simmons alleged
CUE in the April 1977 RO decision, which was denied by the RO
in February 1996 and by the Board in January 1998. See R. at
472. Mr. Simmons appealed the adverse Board decision to this
Court. In May 2000, the Court issued a precedential decision afﬁrming the Board decision. Simmons v. West, 13 Vet.App. 51
(2000). In August 2000, the Court withdrew its May 2000 decision, denied Mr. Simmons’s motion for reconsideration, and again
afﬁrmed the Board decision. Simmons v. West, 14 Vet.App. 84
(2000). However, following a motion to vacate and additional
procedural development, the Court set aside the January 1998
Board decision and remanded the matter to the Board for readjudication. Simmons v. Principi, 17 Vet.App. 104 (2003). Upon

App. 16
January 1990, Mr. Simmons again ﬁled to reopen a
claim for service connection for emotional trauma and
a nervous breakdown. In an unappealed February
1991 decision, the Board reopened the claim for service
connection, but denied the underlying claim.
In December 2005, Mr. Simmons, through counsel,
ﬁled a CUE motion as to the September 1974 RO decision that denied service connection for rheumatoid
arthritis and a nervous condition with depressive features. R. at 326-33. In September 2009, the RO found
no CUE in the September 1974 RO decision with respect to both claims. R. at 315-17. In September 2010,
Mr. Simmons ﬁled an NOD only as to the RO’s ﬁnding
of no CUE in the September 1974 denial of service connection for an acquired psychiatric disability. R. at 293300. Following a March 2012 SOC, R. at 234-47, Mr.
Simmons perfected an appeal to the Board in April
2012, R. at 194-202.
In March 2015, the Board found no CUE in the
September 1974 RO decision that denied service connection for an anxiety disorder with depressive features. R. at 184-92. In its decision, the Board found that
the September 1974 RO decision was subsumed by the
February 1991 adverse Board decision and, therefore,
readjudication, the Board, in August 2004, found that Mr. Simmons’s 1995 motion alleging CUE regarding the denial of service
connection for a nervous disorder was without legal merit as it
was subsumed by the Board’s February 1991 decision. R. at 47194. The Board also dismissed the motion alleging CUE regarding
the denial of service connection for arthritis as legally insufﬁcient.
Id. Mr. Simmons did not appeal the August 2004 Board decision.

App. 17
was not subject to a CUE challenge. R. at 190. Mr. Simmons appealed that Board decision to this Court. In a
January 2016 joint motion for remand, the parties
agreed that readjudication was needed because the
Board erred in ﬁnding that the February 1991 Board
decision subsumed the September 1974 RO decision
because the February 1991 Board decision did not involve a de novo review of the same issue before the RO
in 1974. R. at 137-42 (citing Brown v. West, 203 F.3d
1378, 1381-82 (Fed. Cir. 2000) and noting that the
Board, in February 1991, determined that the evidence
submitted subsequent to April 1977 did not demonstrate that a psychiatric disorder was present during
active service and, therefore, did not conduct a de novo
review of the entire record to determine if the September 1974 RO decision was erroneous).
In the May 2016 decision on appeal, the Board
found no CUE in the September 1974 RO decision that
denied service connection for an acquired psychiatric
disorder. R. at 4-5. The Board found that Mr. Simmons
failed to demonstrate that the September 1974 RO decision misapplied, or failed to apply, any applicable law
or VA regulation, or that the decision otherwise contained CUE. R. at 18. In consideration of Mr. Simmons’s arguments regarding statutory presumptions,
the Board speciﬁcally found that neither the presumption of soundness nor the presumption of service incurrence applied. R. at 16-17. The Board further found
that most of Mr. Simmons’s arguments “boil down to
allegations that the RO in 1974 improperly weighed
the evidence of record in denying the claim; such

App. 18
allegations can never rise to the level of CUE.” Id. The
Board added that “[Mr. Simmons] has not offered an
explanation as to how the outcome would be manifestly different but for the errors claimed.” Id. This
appeal followed.
II.

THE BOARD’S CUE ANALYSIS

When a prior ﬁnal RO or Board decision contains
CUE, that decision may be reversed or revised, resulting in correction of the error effective the date of its
commission. 38 U.S.C. §§ 5109A, 7111; see DiCarlo v.
Nicholson, 20 Vet.App. 52, 54-58 (2006); 38 C.F.R. §§ 3.105
(2018), 20.1400-1411 (2018). CUE is established when
the following components are met: (1) Either the correct facts as they were known at the time were not
before the adjudicator, the adjudicator made an erroneous factual ﬁnding, or the statutory or regulatory
provisions extant at the time were incorrectly applied;
(2) the alleged error is “undebatable,” not merely a “disagreement as to how the facts were weighed or evaluated”; and (3) the error “manifestly changed the
outcome” of the prior decision. Russell v. Principi, 3
Vet.App. 310, 313-14, 319 (1992); see King v. Shinseki,
26 Vet.App. 433, 439 (2014); Bouton v. Peake, 23
Vet.App. 70, 71-72 (2008); Damrel v. Brown, 6 Vet.App.
242, 245 (1994); see also Bustos v. West, 179 F.3d 1378,
1380-81 (Fed. Cir. 1999). In other words, “CUE is a very
speciﬁc and rare kind of ‘error’ . . . of fact or law, that
when called to the attention of later reviewers compels
the conclusion, to which reasonable minds could not
differ, that the result would have been manifestly

App. 19
different but for the error.” Fugo v. Brown, 6 Vet.App.
40, 43 (1993).
In reviewing Board decisions evaluating allegations of CUE in prior ﬁnal decisions, the Court “cannot
conduct a plenary review of the merits of the original
decision.” Andrews v. Principi, 18 Vet.App. 177, 181
(2004) aff ’d sub nom. Andrews v. Nicholson, 421 F.3d
1278 (Fed. Cir. 2005); see Archer v. Principi, 3 Vet.App.
433, 437 (1992). Rather, the Court’s overall review of a
Board decision ﬁnding no CUE in a prior, ﬁnal RO decision is limited to determining whether the Board’s
CUE finding was “arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law,” 38
U.S.C. § 7261(a)(3)(A), and whether it was supported
by adequate reasons or bases on all material issues of
fact and law, 38 U.S.C. § 7104(d)(1). See Cacciola v. Gibson, 27 Vet.App. 45, 59 (2014); King, 26 Vet.App. at 439.
The components that lead to a valid CUE ﬁnding, however, are subject to review under the standards applicable to each component. Hopkins v. Nicholson, 19
Vet.App. 165, 167-68 (2005). Whether applicable law or
regulation was applied or was correctly applied is a
question of law, which the Court reviews de novo. Id. at
168; see also George v. Shulkin, 29 Vet.App. 199, 206
(2018); Stallworth v. Nicholson, 20 Vet.App. 482, 487
(2006); Joyce v. Nicholson, 19 Vet.App. 36, 43-44 (2005);
Andrews, 18 Vet.App. at 182.
Mr. Simmons argues that the Board made clear
errors of law as to 38 U.S.C. §§ 105(a) and 1111 (formerly 38 U.S.C. § 311 (1970)) when it determined
there was no CUE in the RO’s failure to apply the

App. 20
presumptions of service incurrence and soundness.
Appellant’s Brief (Br.) at 4-14; Reply Br. at 1-13. He argues that, consistent with evidence extant in 1974, the
Board made favorable ﬁndings of fact that in service
he was diagnosed with an acquired psychiatric disability not noted upon service entry, and therefore the
Board should have found that the RO erred in 1974 (1)
in not affording him the presumptions under sections
105(a) and 1111 and (2) in not concluding that such
disability was incurred during service, meeting the
second element of service connection. Appellant’s Br. at
4-5; see Shedden v. Principi, 381 F.3d 1163, 1166-67
(Fed. Cir. 2004) (noting that to establish service connection, “the veteran must show (1) the existence of a
present disability; (2) in-service incurrence or aggravation of a disease or injury; and (3) a causal relationship
between the present disability and the disease or injury incurred or aggravated during service”).
A.

The Board’s Presumption of Soundness Analysis

The presumption of soundness under section 1111
dictates that a veteran shall be presumed to have been
in sound condition when entering service, except as to
disorders noted upon a service entrance examination.
38 U.S.C. § 1111; 38 U.S.C. § 311 (1970)2; see Holton v.
Shinseki, 557 F.3d 1362, 1367 (Fed. Cir. 2009); Dye v.
Mansﬁeld, 504 F.3d 1289, 1293 (Fed. Cir. 2007). “[T]he
2

In 1974, the presumption of soundness was codiﬁed at section 311, but the current statute is substantially similar to the
version in effect in 1974.

App. 21
presumption of soundness serves as a shield against
any assertion by the Secretary that a veteran’s in-service disability that was not noted upon entry to service
preexisted service.” Gilbert v. Shinseki, 26 Vet.App. 48,
52 (2012). It “is not a sword for the veteran to fulﬁll the
second element of service connection without any evidence of the manifestation of an in-service disability.”
Id. For the presumption of soundness to apply, there
must be evidence of an injury or disease manifesting
during service that was not noted upon entry. Id.; see
Holton, 557 F.3d at 1367; Horn v. Shinseki, 25 Vet.App.
231, 236 (2013). Once the presumption applies, and if
the Secretary is unable to rebut it, the injury or disease
that manifested during service is presumed to have
been incurred during service, thus satisfying the second element of service connection. See Gilbert, 26
Vet.App. at 52; Horn, 25 Vet.App. at 236; see also Shedden, 381 F.3d at 1166-67.
The Board noted that Mr. Simmons was seeking
“the beneﬁt of [the] presumption of soundness . . . as
no pre-existing mental health disorder was noted on
the service entrance examination [report]” and “evidence of record extant at the time was legally insufﬁcient to rebut the presumption of soundness and did
not contain clear and unmistakable evidence that [he]
had a pre-existing mental health disorder that was
not aggravated by such service.” R. at 14. However, the
Board characterized this argument as an attempt to
convert the case from one for direct service connection
to one for preexistence and aggravation and concluded
that, because no question of preexistence was raised at

App. 22
the time of the September 1974 RO decision, the presumption of soundness was not applicable and the RO
did not err in not addressing it. R. at 17.
Although the Board correctly noted that Mr. Simmons is seeking to beneﬁt from the presumption of
soundness, it misunderstood his argument. Mr. Simmons’s argument below was that, because there was no
notation of an acquired psychiatric disability on his
service entrance examination report, he should have
been presumed sound at entry as to his psychiatric
condition and any psychiatric condition that occurred
during service would be presumed to have manifested
during service. Mr. Simmons was not alleging that the
RO failed to rebut the presumption in an attempt to
have the high burden on VA of rebuttal to prove with
clear and unmistakable evidence both that a psychiatric disorder did not pre-exist service and was not aggravated by service. R. at 17. Instead, Mr. Simmons is
simply seeking the beneﬁt of the presumption—
namely, that the in-service notations of mental health
complaints following a clear entrance examination establish that a mental health condition arose during
service and did not pre-exist service.
Regardless of the Board’s characterization, the
Court’s role in reviewing the Board decision is to determine if the Board’s CUE determination was arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law. The presumption of soundness is
triggered by evidence of manifestation during service
of an injury or disease not noted upon entry to service.
Holton, 557 F.3d at 1367; Gilbert, 26 Vet.App. at 52;

App. 23
Horn, 25 Vet.App. at 236. Although the Board acknowledged several in-service psychiatric symptoms and
that they were not noted upon entry, it found that the
presumption of soundness did not apply. R. at 16-17.
This Board ﬁnding is a clear misapplication of law. See
Holton, 557 F.3d at 1367; Gilbert, 26 Vet.App. at 52;
Horn, 25 Vet.App. at 236.
B. The Board’s Presumption of
Service Incurrence Analysis
The presumption of service incurrence3 under section 105(a) establishes that an injury or disease incurred during active service was incurred in the line of
duty and was not the result of misconduct. 38 U.S.C.
§ 105(a)4; see Holton, 557 F.3d at 1366-67; Dye, 504 F.3d
at 1292. In certain ways, the presumption of service
incurrence operates similarly to the presumption of
soundness. The presumption of service incurrence
serves as a shield against any assertion by the Secretary that a veteran’s in-service injury or disease was
not in the line of duty or was caused by the veteran’s
willful misconduct or abuse of alcohol or drugs. See
Holton, 557 F.3d at 1367. Also, the presumption of service incurrence is triggered by evidence of an in-service
injury or disease. See id. Most importantly, once the
presumption applies and the Secretary is unable to
3

The presumption of service incurrence is alternatively
called the presumption of service connection or the line-of-duty
presumption.
4
The current statute is substantially similar to the version
in effect in 1974. U.S.C. § 105(a) (1970).

App. 24
rebut it, the injury or disease that manifested during
service is presumed to have been incurred during service, satisfying the second element of service connection. See id.; Dye, 504 F.3d at 1292.
In its decision, the Board found that the presumption of service incurrence did not apply because “the
evidence must ﬁrst demonstrate that there is a mental
health disability incurred in service” for Mr. Simmons
to receive the beneﬁt of the presumption. R. at 16. The
Board then referenced the 1974 examiner’s opinion,
seemingly to conclude that the presumption was not
triggered because the in-service mental health symptoms were not related to the post-service diagnosed
anxiety reaction with depressive features, which the
examiner attributed to the nonservice-connected rheumatoid arthritis. See R. at 1457. But whether the inservice symptoms were attributable to the post-service
psychiatric disability concerns nexus, the third prong
of service connection. See Shedden, 381 F.3d at 1167.
The presumption of service incurrence relates exclusively to the second prong of service connection, incurrence in service; therefore, the question of linkage to
service is irrelevant to whether the presumption applies. See Holton, 557 F.3d at 1367; Dye, 504 F.3d at
1292; Shedden, 381 F.3d at 1367.
The Secretary argues that Mr. Simmons was in
fact “not diagnosed with a disability [in service, but]
rather was assigned with symptoms of depression,”
noting that “service treatment records fail to show a
conﬁrmed diagnosed disability.” Secretary’s Br. at 12;
see Oral Argument at 39:00-42:06, Simmons v.

App. 25
O’Rourke, U.S. Vet. App. No. 16-3039. His arguments,
however, are unsupported by the evidence as there is
no indication from the service treatment records that
the diagnoses of “depressive reaction,” R. at 128, and
“situational depression,” R. at 129, were provisional
diagnoses or were not conﬁrmed. See R. at 130 (noting
that Mr. Simmons was referred for psychiatric consultation because, between April and December 1969, he
was “continuing and progressively becoming depressed”). Moreover, even if the Secretary’s characterization is correct—that the in-service mental health
symptoms were not manifestation of an in-service
disease or injury that is subject to service connection
but were instead manifestations of a non-serviceconnectable personality disorder—it is the Board’s responsibility to provide such an analysis and the Court
cannot accept the Secretary’s post-hoc rationalizations.
See In re Lee, 277 F.3d 1338, 1345-46 (Fed. Cir. 2002)
(“ ‘[C]ourts may not accept appellate counsel’s post hoc
rationalization for agency action.’ ”) (quoting Burlington Truck Lines, Inc. v. United States, 371 U.S. 156, 168
(1962)); Smith v. Nicholson, 19 Vet.App. 63, 73 (2005)
(“[I]t is not the task of the Secretary to rewrite the
Board’s decision through his pleadings ﬁled in this
Court.”).
The presumption of service incurrence is triggered
by evidence of manifestations during service of an injury or disease. Holton, 557 F.3d at 1367. Although
the Board acknowledged several in-service notations
of psychiatric symptoms, it found that the presumption
of service incurrence did not apply. R. at 16. This Board

App. 26
ﬁnding is a clear misapplication of law. See Holton, 557
F.3d at 1367; Dye, 504 F.3d at 1292.
C.

The Board’s Conclusion Concerning
No Manifestly Changed Outcome

As we have explained, the Board erred as a matter
of law when it concluded that the RO in 1974 need not
have considered sections 105(a) and 1111. Merely ﬁnding an error, however, is not enough for Mr. Simmons
to prevail. We are statutorily required to consider
whether those errors prejudiced him. 38 U.S.C.
§ 7261(b)(2); see Hilkert a West, 12 Vet.App. 145, 151
(1999) (en banc) (appellant has the burden to show
prejudicial error). The matter is somewhat more complicated in the context of CUE because part of the analysis that the Board undertakes incorporates a form of
prejudicial error analysis—an error cannot be CUE
unless it would have “manifestly changed the outcome”
of the underlying agency decision. Fugo, 6 Vet.App. at
43; Russell, 3 Vet.App. at 113-14.
Whether the Board addressed the “manifestly
changed outcome” prong of the CUE analysis, and did
so adequately, is important because the answer to that
question dictates our scope of review. Whether an error
would have manifestly changed the outcome of a VA
beneﬁts decision is a mixed question of law and fact
because that question “involves the application of
law . . . to a speciﬁc set of facts.” Butts v. Brown, 5
Vet.App. 532, 538 (1993); see Joyce, 19 Vet.App. at 42-44;
Andrews, 18 Vet.App. at 182. Thus, if the Board reaches

App. 27
the manifestly changed outcome question, as it must
in a CUE context if it ﬁnds error in the underlying decision, and determines that there would have been no
manifestly changed outcome, this Court may only set
aside that Board ﬁnding if it is arbitrary or capricious,
38 U.S.C. § 7261(a)(3)(A),5 or if it was unsupported
by adequate reasons or bases, see Allday v. Brown, 7
Vet.App. 517, 527 (1995). Thus, in the context of our
review of a Board decision on CUE, if we determine
that the Board’s manifestly changed outcome conclusion as to the underlying decision was not arbitrary or
capricious and that it was supported by adequate reasons or bases, there would be no need for the Court to
employ a prejudicial error analysis because there
would be no Board error, the predicate for a Court
harmless error analysis.6
An example will help illustrate this point. Assume
that, as in this appeal, the Board concluded that the
RO in 1974 did not need to apply sections 105 and
1111, but then went further and concluded, based on
5

As the U.S. Court of Appeals for the Federal Circuit (Federal Circuit) has recognized, because the “arbitrary or capricious”
and “clearly erroneous” standards are so similar, the differences
between them are “in actual practice a matter for academic debate.” Munn v. Dept. of Health & Hum. Servs., 970 F.2d 863, 872
(Fed. Cir. 1992); Butts, 5 Vet.App. at 544 (arguing that there is
no material difference between the “arbitrary or capricious”
standard and the “clearly erroneous” test) (Steinberg, J., concurring).
6
The Court cautions that, if the Board commits a procedural
error when making its CUE determination, we would need to assess whether this procedural error prejudiced the claimant under
the standards we articulate in the next section of this opinion.

App. 28
fully adequate reasons or bases, that, even assuming
the RO should have applied these statutory provisions,
there was no CUE in the underlying RO decision because the outcome would not have been manifestly different. In this situation, if the Court concluded that
the Board’s manifestly changed outcome conclusion
was not arbitrary or capricious, there would be no need
to assess prejudice with respect to any Board error on
sections 105 and 1111 because the Board in essence
would have corrected its own error and adequately explained that there would be no manifestly changed
outcome even if the RO applied sections 105 and 1111.
In this hypothetical belt-and-suspenders approach,
although the Board’s belt approach contained error, its
suspenders approach did not, and it fully supported its
determination that there was no CUE in the RO’s 1974
decision.
Things are quite different if the Board found no
error and never took the additional step of adequately
analyzing whether the alleged error, had it occurred,
would have manifestly changed the outcome of the underlying decision. In that case, to comply with our statutory mandate to account for prejudicial error, the
Court would have to assess whether any Board error
in concluding that there was no error in the underlying
RO decision was prejudicial to the claimant.
Here, after discussing why the statutes at issue
were not relevant, the Board also stated that “the Veteran has not offered an explanation as to how the outcome would have been manifestly different but for the
errors claimed,” R. at 18, and then continued by stating

App. 29
that “to demonstrate CUE in a Board decision, it must
be clear that a different result would have ensued but
for the claimed error.” Id. However, aside from noting
Mr. Simmons’s burden to show prejudice, the Board did
not sufﬁciently explain why the RO’s failure to apply
the presumptions would not have manifestly changed
the outcome in 1974. It gave no rationale for the Court
to review under section 7104(a)(3)(A) and, thus, violated section 7104(d)(1) by not providing adequate reasons and bases. The Board did not adequately discuss
whether the presumptions, if correctly applied, would
have manifestly changed the outcome of the claim.
Given this, the Court now must assess the harmfulness of the Board’s failure to apply sections 105 and
1111, something we turn to next.
III.

HARMLESS ERROR

Although the Board erred in its analysis of
whether the presumptions of soundness under section
1111 and service incurrence under section 105(a)
should have been applied in the September 1974 RO
decision, as we explained, the Court has a duty to consider whether the Board’s errors prejudiced Mr. Simmons because the Board did not adequately address
the “manifestly changed outcome” portion of the CUE
analysis. In reviewing a Board decision, this Court
must “take due account of the rule of prejudicial error.”
38 U.S.C. § 7261(c)(2); Sanders, 556 U.S. at 406-07;
Vogan v. Shinseki, 24 Vet.App. 159, 161-62 (2010). Congress’s use of the words “take due account” and “prejudicial error,” the words used in the Administrative

App. 30
Procedure Act (APA), inform us that we are to apply
“the same kind of ‘harmless-error’ rule that courts ordinarily apply in civil cases.” Sanders, 556 U.S. at 40607. Compare 38 U.S.C. § 7261(c)(2) with 5 U.S.C. § 706
(APA: “The reviewing court . . . shall review the whole
record . . . and due account shall be taken of the rule of
prejudicial error.”). A review of legislative history conﬁrms that Congress expressly included a reference to
the APA’s rule of prejudicial error to guide this Court
in its application of that rule. See S. Rep. No. 100-418,
p. 61 (1988).
In Sanders, the Supreme Court found no “relevant
distinction between the manner in which reviewing
courts treat civil and administrative cases” and provided further guidance on how this Court must conduct a harmless error analysis. 556 U.S. at 407-14.
Speciﬁcally, the Supreme Court, in invalidating a
harmless-error framework established by the Federal
Circuit, highlighted several considerations that shape
this Court’s harmless error analysis. Id. Together,
these considerations inform us that prejudice is established by demonstrating a disruption of the essential
fairness of the adjudication, which can be shown by
demonstrating that the error (1) prevented the claimant from effectively participating in the adjudicative
process, or (2) affected or could have affected the outcome of the determination. As explained below, we conclude that the Board’s errors did not disrupt essential
fairness; ﬁrst, though, we review the basics of this
Court’s harmless error framework.

App. 31
First, a reviewing court’s role in conducting a
harmless error analysis is to assess whether the error
affected the claimant’s substantial rights. See id. at
407. Generally, such consideration equates to whether
the result would be different had the error not occurred. See id. at 411; see also Vogan, 24 Vet.App. at
163; S. Rep. No. 100-418, p.61 (“[A] court should pass
over errors in the record of the administrative proceedings that the court finds not to be significant to the
outcome of the matter.”). However, courts must also
consider the effect of the error on the “perceived fairness, integrity, and public reputation of judicial proceedings.” Sanders, 556 U.S. at 411-12; see Vogan, 24
Vet.App. at 163.
Second, a harmless error analysis generally
should be conducted through a case-speciﬁc application of judgment based upon examination of the individual record, rather than based on mandatory
presumptions of prejudicial error and rigid rules.
Sanders, 556 U.S. at 407-08 (noting that the statutory
language of the federal harmless-error rule “seeks to
prevent appellate courts from becoming impregnable
citadels of technicality” (citing Kotteakos v. United
States, 328 U.S. 750, 759 (1946))).
Third, irrespective of the prohibition against mandatory presumptions of prejudice, courts may make
generalizations about the types of errors that typically
prove harmful to claimants. Id. at 411 (noting that
reviewing courts may learn over time that certain errors naturally affect a litigant’s substantial rights
(citing Kotteakos, 328 U.S. at 760-61)). Although these

App. 32
generalizations must not control, courts may consider
these “natural effects” in conducting a harmless error
analysis. Id. The Supreme Court cautioned, however,
that courts must not generalize too broadly, but instead may consider these “natural effects,” along with
other factors, within “the speciﬁc factual circumstances in which the error arises.” Id. at 411-12. Of
note, the Supreme Court speciﬁcally acknowledged
that it is this Court “that sees sufﬁcient case-speciﬁc
raw material in veterans’ cases to enable it to make
empirically based, nonbinding generalizations about
‘natural effects,’ ” and is better able to make informed
judgments regarding “natural effects.” Id. at 412.
Fourth, the appellant generally bears the burden
of demonstrating the prejudicial effect of an error. Id.
at 409-11. In circumstances where the prejudicial effect of an error is not obvious, the aggrieved party “normally must explain why the erroneous ruling caused
harm.” Id. at 410. The goal is not to “impose a complex
system of ‘burden shifting’ rules or a particularly onerous requirement,” but is an acknowledgement that in
administrative cases, like in civil cases, the appellant
is generally in a better position to explain how they
have been harmed by an error. Id.
Finally, speciﬁc to the veterans beneﬁts context,
and underpinning all of the considerations above, the
Supreme Court acknowledged some leeway in conducting a harmless error analysis due to the non-adversarial nature of the veterans beneﬁts system. Id. at 412.
As VA is statutorily obliged to assist veterans in the
development of their claims and as veterans are often

App. 33
unrepresented throughout the administrative process,
a reviewing court might consider an error harmful in
a veteran’s case where it might be considered harmless
in other circumstances. Id.
Although Sanders provides a general framework
for this Court’s harmless error analysis, this case presents an opportunity for us to expand upon that framework, particularly in the context of our review of Board
decisions on CUE motions.
A.

Inherent Prejudice in Failing to Afford
the Benefit of Two Presumptions?

Mr. Simmons argues that the Board’s failure to
recognize that the RO in 1974 should have afforded the
beneﬁt of the presumptions of soundness and service
incurrence was sufﬁciently harmful that our harmless
error analysis should end there. See Appellant’s Supplemental (Supp.) Br. at 11-13; Oral Argument at
1:10:34-1:13:16; 1:16:28-1:16:55. He argues that the
essential fairness of the adjudicative process is disrupted if the Board fails to correctly apply mandatory
statutory and regulatory presumptive provisions. See
Appellant’s Supp. Br. at 11-13; Oral Argument 1:13:001:13:16 (“[C]learly, when a presumption is afforded by
Congress or when VA itself creates a regulatory presumption, then those presumptions have to be afforded
for there to be the essential fairness of an adjudication.”). Further, he argues that if the Court’s harmless
error analysis focuses solely on whether correction of
the Board’s error manifestly would result in a different

App. 34
outcome, it would undermine the importance and
value of statutory and regulatory presumptions, see
Oral Argument at 1:06:50-1:08:36, and “the totality of
the adjudication process would be insulated from review and revision,” Appellant’s Supp. Br. at 13.
As noted, usually a harmless error determination
is conducted through case-speciﬁc application of judgment without relying on mandatory presumptions of
prejudicial error. See Sanders, 556 U.S. at 407-08. Contrary to the Supreme Court’s instruction in Sanders to
avoid mandatory presumptions of prejudice, Mr. Simmons
implores this Court to ﬁnd that failure by the Board to
properly apply a statutory or regulatory provision is
inherently prejudicial. He argues that, because the
beneﬁt of a presumption is to relieve a claimant from
the burden of providing evidence of the relevant issue,
failure to afford a claimant the beneﬁt of the presumption is unfair, naturally harmful to the claimant, and
undermines the essential fairness of the adjudicative
process. See Appellant’s Supp. Br. at 10-11; Oral Argument at 1:13:00-1:13:16; see also Oral Argument at
7:00-8:02, 25:07-26:56, 33:15-34:13, 1:06:50-1:08:37.
He argues that such “natural effect” should lead this
Court to an obvious conclusion of prejudicial error.
Although no doubt such failure could prejudice a veteran, were this Court to adopt a presumption of prejudice in such circumstances, we would risk negating our
statutory obligation to take due account of the rule of
prejudicial error. Nevertheless, Sanders left the door
open for this Court to make non-binding generalizations about inherently prejudicial errors, that is, errors

App. 35
where the “natural effect” is prejudicial. 556 U.S. at
411-12.
We have held on several occasions that VA claimants are entitled to a fair adjudicative process that includes certain rights and procedural safeguards. See,
e.g., Thurber v. Brown, 5 Vet.App. 119, 123 (1993) (“The
entire thrust of [ ] VA’s nonadversarial claims system
is predicated upon a structure which provides for notice and an opportunity to be heard at virtually every
step in the process.”); Bernard v. Brown, 4 Vet.App. 384,
392-94 (1993) (holding that VA claimants must be afforded “full benefits of . . . procedural safeguards” afforded
by statutory and regulatory provisions establishing “extensive procedural requirements to ensure a claimant’s
right to full and fair assistance and adjudication in the
VA adjudication process”). When an error abrogates
the essential fairness of the adjudication or deprives a
claimant of a meaningful opportunity to participate in
the processing of their claim, the error has the “natural
effect” of being prejudicial. See Sanders, 556 U.S. at
411; see also Overton v. Nicholson, 20 Vet.App. 427,
43435 (2006) (“A procedural or substantive error is
prejudicial when the error affects a substantial right
that a statutory or regulatory provision was designed
to protect.” (citing McDonough Power Equipment, Inc.
v. Greenwood, 464 U.S. 548, 553 (1984))).
We have not identiﬁed a ﬁnite set of errors that
affect essential fairness or deprive a claimant of a
meaningful opportunity to participate in the VA adjudicatory process. In Overton, pre-dating Sanders, we
noted that proper notice regarding the evidence

App. 36
necessary to substantiate a claim and the person responsible for obtaining such evidence was signiﬁcant
in ensuring that a claimant was provided a meaningful
opportunity to participate effectively in the processing of the claim. 20 Vet.App. at 435. In VazquezFlores v. Shinseki, post-dating Sanders, we noted that
VA’s lack of notice or defective notice to a veteran of
evidence necessary to substantiate a claim would have
a naturally prejudicial effect, but that incomplete notice would not necessarily have a naturally prejudicial
effect because it would not prevent veterans from participating in the adjudication of their claims. 24
Vet.App. 94, 105-07 (2010). In Arneson v. Shinseki, we
found that failure to afford an opportunity for a hearing before all Board decisionmakers deprived the
claimant of an opportunity to meaningfully participate
in the adjudicatory process. 24 Vet.App. 379, 388-89
(2011); but see Bowen v. Shinseki, 25 Vet.App. 250, 25354 (2012) (ﬁnding no prejudicial error where the veteran was not provided a hearing at the RO level because the veteran was provided an opportunity for a
hearing before the Board).
Other courts have considered similar factors when
determining whether an error affected the essential
fairness of the decision-making process. See, e.g.,
United States v. Young, 470 U.S. 1, 17 n4 (1985) (noting
that federal courts have consistently required that for
an error to be prejudicial, it must have an effect on jury
deliberations—“[o]nly then would the court be able to
conclude that the error undermined the fairness of
the trial and contributed to a miscarriage of justice”);

App. 37
Smith v. Phillips, 455 U.S. 209, 217-21 (1982) (noting
that due process does not require a new trial every
time a juror is placed in a potentially compromising
situation, particularly where the facts found demonstrated that the juror’s conduct did not affect their impartiality); United States v. Reynolds, 710 F.3d. 498,
516-19 (3d Cir. 2013) (noting a distinction between
technical errors in an agency’s notice and comment
procedures and an agency’s “utter failure” to comply
with notice and comment requirements); California
Wilderness Coalition v. U.S. Department of Energy, 631
F.3d 1072, 1092 (9th Cir. 2011) (noting that harmless
error is error that “has no bearing on the procedure
used or the substance of the decision reached.” (internal citation omitted)); United States v. Rivera, 273 F.3d
751, 757 (7th Cir. 2001) (ﬁnding an errant jury instruction prejudicial where it “had serious potential to affect
the outcome” and thus “undermined the essential fairness and integrity of the trial”); Ficek v. Southern Paciﬁc Company, 338 F.2d 655, 657 (9th Cir. 1964)
(distinguishing between “substantive fairness” and
“essential fairness” of an arbitration, the latter meaning that the arbitration proceeding met the minimal
requirements of fairness—notice, a full and fair hearing, and a decision based on the honest judgment of the
adjudicators); see also McDonough Power Equipment
Inc., 464 U.S. at 553 (noting that “a litigant is entitled
to a fair trial but not a perfect one” (internal citation
and alteration omitted)).
Mr. Simmons asks us to equate the Board’s failure
to ensure that the RO in 1974 afforded him the beneﬁt

App. 38
of two statutory presumptions, which, if afforded,
would result in fulﬁllment of one of three elements of
service connection, with failure to afford various due
process and other safeguard factors related to ensuring
that justice is served and that lie at the core of any
decision-making process. See Oral Argument at
1:12:31-1:13:00. But we do not agree that the two are
equivalent. Aside from stating that the natural effect
of failure to abide by these presumptions is harmful,
Mr. Simmons has not persuasively demonstrated how
the Board’s error affected the essential fairness of the
adjudication as to CUE here, or deprived him of a
meaningful opportunity to participate in the fair processing of his claim. There is no indication that the
Board’s errors undermined the essential fairness and
integrity of VA’s decision-making process in relation to
his CUE motion and he points to no factor on a scale
with lack of notice, defective notice, lack of opportunity
for a hearing, partiality or dishonesty of a decisionmaker, or any other factor that would violate even minimum standards of fairness. Particularly here, where
the presumptions at issue relieve a claimant of afﬁrmatively providing evidence on a single element out of
several required for success, the failure to properly apply a presumption does not have the natural effect of
preventing meaningful participation in the VA decision-making process. Therefore, even considering the
pro-claimant nature of the veterans beneﬁts system,
we hold that the failure to afford the beneﬁt of the type
of statutory or regulatory presumption at issue in this
case is not an inherently prejudicial error, although it
may nevertheless be prejudicial in a particular case.

App. 39
B. When No Inherent Prejudice,
Look at Individual Circumstances
As we have found that the Board’s error in Mr.
Simmons’s case—the failure to properly afford him the
beneﬁt of the aforesaid statutory presumptions—is not
inherently prejudicial, we must now look at the individual circumstances surrounding the Board’s error to
determine if it prejudiced Mr. Simmons. In cases not
involving allegations of CUE, this usually involves
looking at the effect of Board error on the Board’s ultimate decision to determine if the error prejudiced the
claimant.
But Mr. Simmons argues that this Court’s Archer
decision prohibits the Court in this case from assessing
prejudice as we normally do. See Oral Argument at
3:42-6:19, 8:02-8:46, 24:3325:07; 34:59-35:58, referring
to Archer, 3 Vet.App. at 437 (In reviewing a Board decision on a CUE motion, “[w]e cannot conduct a plenary
review of the merits of the original decision; rather, we
are limited to determining whether the [Board’s] subsequent decision . . . was arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance
with law.” (internal citation omitted)); see also Andrews, 18 Vet.App. at 181-82 (reiterating our standard
of review of a Board decision on a CUE motion, as
enunciated in Archer). He argues that this Court’s
usual harmless error review, which generally involves
determining whether Board error would have made a
difference in a beneﬁts determination outcome, would
compel us to engage in plenary review of the underlying facts of the RO decision, an endeavor that the

App. 40
Court in Archer prohibited. For several reasons, the
Court disagrees.
First, in Archer the Court did not engage in a
harmless error analysis, because it did not ﬁnd any error in Mr. Archer’s Board decision. Its pronouncement
prohibiting plenary review therefore only applied to
the kind of review that it conducted in Mr. Archer’s
case—the Court’s review of Mr. Archer’s Board decision
for arbitrariness or capriciousness. Therefore, the
Court concludes that the Archer prohibition against
plenary review of the underlying facts does not apply
at the stage where we shoulder our statutory obligation to examine for prejudicial error, consequent to
ﬁnding that the Board erred in its CUE determination.
Essentially, although Mr. Simmons argues that
our harmless error analysis cannot involve a plenary
review of the underlying facts, his argument overlooks
that the Court in reviewing a Board decision on a CUE
motion undertakes two separate inquiries. The prohibition on plenary review applies when the Court is determining whether the Board decision is arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law. In contrast, when conducting a
harmless error analysis, the Court has already determined that the Board has erred and that the Board did
not address, or did not address adequately, whether, if
the underlying decision were incorrect, the outcome
would manifestly have been different. In that context,
the Court is determining whether the Board error was
prejudicial or affected the essential fairness of the adjudication. See Sanders, 556 U.S. at 411-12; Arneson,

App. 41
24 Vet.App. at 388-89; Vogan, 24 Vet.App. at 163. That
inquiry must go beyond the Board’s analysis because
“[t]he Board cannot predict every instance in which it
might be found to have committed error,” and, therefore, “cannot be expected to make speciﬁc factual ﬁndings that might facilitate a prejudicial error analysis.”
Vogan, 24 Vet.App. at 163; see id. at 163-64 (“If the
Court’s review were restricted to findings made by
the Board, the usefulness of Congress’s direction that
we examine an error for prejudice would be marginalized as a tool for avoidance of remands that entail no
realistic prospect of an outcome more favorable to a
veteran.”). Undertaking harmless error review after
ﬁnding Board error in a Board decision on a CUE motion does not violate Archer but instead begins a separate, statutorily required step in our review of a Board
decision on CUE.7
Second, precedent indicates that the Court’s
harmless error analysis is exceedingly broad. In
Newhouse v. Nicholson, the Federal Circuit noted that
7

This discussion is similar to the one set forth above concerning the different inquiries that the Court may make in reviewing Board decisions regarding CUE. When the Court reviews
whether a Board’s determination regarding the existence of CUE
is arbitrary or capricious, Archer has force. The Court does not
look through the Board decision to assess the underlying decision
that is the subject of the CUE motion. In contrast, when the Court
is determining whether any Board error is prejudicial to the appellant, the Court is considering prejudicial error as an original
matter. Because the Board’s CUE determination involves a “manifestly different outcome” component, the only way to assess any
prejudice in a Board error is to consider the decision that is the
subject of the CUE motion.

App. 42
section 7261(b)(2) does not limit our prejudicial error
analysis to the facts as found by the Board, but rather
requires a full review of the record to determine if the
error is prejudicial. 497 F.3d. 1298, 1302 (2007). Similarly, in Vogan, we held that the statute “places no limitations on the scope” of a harmless error analysis. 24
Vet.App. at 163; see Mayﬁeld v. Nicholson, 19 Vet.App.
103, 114 (2005) (noting that the Court’s ability to take
due account of the rule of prejudicial error “leaves us
with considerable latitude as to how to ‘take due account’ ”), rev’d on other grounds, Mayﬁeld v. Nicholson,
444 F.3d 1328 (Fed. Cir. 2006).
Having determined that the Board erred, that
those errors did not have the natural effect of prejudicing Mr. Simmons, and that conducting a prejudicial
error analysis here will not violate Archer, we turn now
to determining whether the Board’s errors prejudiced
Mr. Simmons. See Sanders, 556 U.S. at 411-12;
Vazquez-Flores, 24 Vet.App. at 107 (“[P]rejudice is not
assessed in a vacuum; rather it is based on the facts
and circumstances presented in the entire record.”).
That inquiry must be guided by whether essential fairness was disrupted by the error, usually demonstrated
by determining whether the error affected the Board’s
ultimate decision or prevented the claimant from effectively participating in the process. See Sanders, 556
U.S. at 411-12; Arneson, 24 Vet.App. at 388-89; Vogan,
24 Vet.App. at 163.
The Court concludes that the Board errors did not
prevent Mr. Simmons from participating in the processing of his CUE motion or affect the overall fairness

App. 43
of the adjudicative process. Mr. Simmons, through
counsel that currently represents him before this
Court, initiated his CUE motion in December 2005. R.
at 326-33. In his original motion, and in subsequent
statements, Mr. Simmons, through counsel, advanced
arguments similar to those he now raises—that the
RO did not apply the presumptions of soundness and
service incurrence. See R. at 194-202, 293-300, 326-33.
The Board specifically addressed these contentions
in the May 2016 decision here on appeal. R. at 14-18.
Although the Court concludes that the Board itself
misapplied the statutory presumptions, there is no
indication that Mr. Simmons has not been provided a
meaningful opportunity to participate in the processing of his CUE motion or that the overall adjudicative process was unfair.
The Board’s errors also did not affect its ultimate
determination—that there was no CUE in the September 1974 RO decision denying service connection for an
acquired psychiatric disorder—because, even if it had
not made those errors, the Court concludes that the
Board would not have found CUE in the September
1974 RO decision. The presumptions of soundness and
service incurrence relieve a claimant of providing evidence that satisﬁes the second—or inservice—prong of
service connection; the presumptions do not relieve a
claimant of providing evidence of the third—or linkage—prong of service connection.8 See Holton, 557 F.3d
8

The parties agree that, in 1974, Mr. Simmons had evidence
sufﬁcient to satisfy the ﬁrst prong of service connection—a current disability.

App. 44
at 1367; Dye, 504 F.3d at 1292; Shedden, 381 F.3d at
1367; Horn, 25 Vet.App. at 236. Mr. Simmons argues
that the June 1974 private medical opinion provides
that linkage. Appellant’s Br. at 10; see Appellant’s Supp.
Br. at 12. The June 1974 private medical opinion indicated that Mr. Simmons’s then-current (non-serviceconnected) inﬂammatory or rheumatoid arthritis began during service, manifesting itself in service as
depression. Despite Mr. Simmons’s assertions to the
contrary, the private physician did not provide an opinion linking his then-current acquired psychiatric disorder to his in-service diagnoses of depressive reaction
and situational depression or to any symptoms of mental depression.
And, even assuming that the opinion was favorable
linkage evidence, the record before the RO in September 1974 also included the August 1974 VA examiner’s
opinion that Mr. Simmons’s acquired psychiatric disability was secondary to a non-service-connected arthritic condition. R. at 1457. Therefore, despite his
arguments, the Court cannot agree with Mr Simmons
that “[h]ad the presumption[s] been afforded[,] based
on the evidence of nexus in the record, an award of service compensation would have been required.” Appellant’s Supp. Br. at 12.
Finally, the Court notes that, during oral argument, Mr. Simmons argued that, had VA properly applied the statutory presumptions, it would have
triggered additional duties to develop the record for additional evidence. See Oral Argument at 15:48-19:57.
To the extent that he is suggesting correction of the

App. 45
Board’s error would trigger the Board to develop additional evidence, the Board’s adjudication of CUE motions must be made on the evidence that existed at the
time of the original decision. See Pierce v. Principi, 240
F.3d 1348, 1354 (Fed. Cir. 2001); Caffrey v. Brown, 6
Vet.App. 377, 383 (1994). Therefore, it is unclear what
additional evidence the Board would have been required to develop. To the extent that Mr. Simmons is
suggesting that the correction of any RO error in failing to apply the same statutory presumptions would
have triggered additional development by the RO in
1974, duty-to-assist errors can never rise to the level of
CUE. Cook v. Principi, 318 F.3d 1334, 1346-47 (2002);
Caffrey, 6 Vet.App. at 383-84.
In summary, although the Board erred in its analysis of whether the presumptions of soundness and
service incurrence applied in September 1974, its error
neither affected a substantial right that disrupted the
fundamental fairness of the adjudication nor affected
its ultimate determination. Because, even with correction of its error with regard to sections 1111 and
105(a), the Board could not have found CUE in the
September 1974 RO decision, the Board’s error is
harmless. See, e.g., Sanders, 556 U.S. at 411-12; Vogan,
24 Vet.App. at 163. Therefore, this matter will be afﬁrmed.

App. 46
IV.

CONCLUSION

Upon consideration of the foregoing, the May 13,
2016, Board decision is AFFIRMED.

App. 47
APPENDIX C
[SEAL] BOARD OF VETERANS’ APPEALS
DEPARTMENT OF
VETERANS AFFAIRS
WASHINGTON, DC 20420
IN THE APPEAL OF
RICHARD D. SIMMONS
DOCKET NO. 12-10 110

)
)
)

DATE May 13, 2016
PAJ

On appeal from the
Department of Veterans Affairs (VA)
Regional Office (RO) in
Winston-Salem, North Carolina
THE ISSUE
Whether there was clear and unmistakable error
(CUE) in a September 18, 1974, rating decision that
denied service connection for an acquired psychiatric
disorder.
REPRESENTATION
Appellant represented by: Kenneth M. Carpenter, Attorney
ATTORNEY FOR THE BOARD
E. Blowers, Associate Counsel

App. 48
INTRODUCTION
The Veteran, who is the appellant, had active service
from November 1968 to January 1970.
This matter came before the Board of Veterans’ Appeals (Board) on appeal from a September 2009 rating
decision of the RO in Winston-Salem, North Carolina.
Initially, the Board must address the exact issue on appeal. In its September 2009 rating decision, the RO
found no revision warranted to the September 18, 1974
rating decision as to the issues of 1) service connection
for rheumatoid arthritis and 2) service connection for
anxiety disorder with depressive features. These two
issues were listed in the March 2012 statement of the
case (SOC) and the September 2013 VA Form 8.
If a veteran wishes to reasonably raise a claim of CUE,
there must be some degree of speciﬁcity as to what the
alleged error is and, unless it is the kind of error that,
if true, would be CUE on its face, persuasive reasons
must be given as to why one would be compelled to
reach the conclusion, to which reasonable minds could
not differ, that the result would have been manifestly
different but for the alleged error. Bustos v. West, 179
F.3d 1378, 1381 (Fed. Cir. 1999), cert. denied, 528 U.S.
967 (1999); Fugo v. Brown, 6 Vet. App. 40, 43-44 (1993).
Here, the Veteran has never pled with any speciﬁcity
some error in the September 18, 1974 RO rating decision denying service connection for rheumatoid arthritis. The arguments from the date of the original CUE
claim to the present have solely addressed the denial of service connection for an acquired psychiatric

App. 49
disability. As such, the Board does not ﬁnd that the issue of CUE in the September 18, 1974 RO rating decision as to denial of service connection for rheumatoid
arthritis is currently before the Board, and, even if it
were, dismissal would be required due to the failure to
plead a speciﬁc error of fact or law. See 38 U.S.C.A.
§§ 5109A (West 2014); 38 C.F.R. § 3.105 (2015).
This matter was ﬁrst before the Board in March 2015,
where the Board found that the issue of CUE in a September 18, 1974 RO rating decision that denied service
connection for an acquired psychiatric disorder was
subsumed by a prior February 4, 1991 Board decision. The Veteran appealed the March 2015 Board
decision to the U.S. Court of Appeals for Veterans
Claims (Court). In a January 2016 Order, the Court
granted a Joint Motion for Vacatur and Remand (JMR)
and remanded the CUE issue currently on appeal for
action consistent with the terms of the JMR. Speciﬁcally, the parties agreed that the Board erred in ﬁnding
that the February 4, 1991 Board decision had subsumed the 1974 rating decision. In the instant decision, the Board directly addresses the issue of whether
there was CUE in the September 18, 1974 rating decision that denied service connection for an acquired
psychiatric disorder. See Forcier v. Nicholson, 19 Vet.
App. 414 (2006) (holding that the duty to ensure compliance with a Court Order extends to the terms of the
agreement struck by the parties that forms the basis
of the JMR).

App. 50
In a March 2016 brief, the Veteran’s representative requested that “the previous docket number, 96-30 550,
be reassigned” to the appeal. The Board notes that the
Veteran’s representative made the same request in a
December 2013 brief. In a January 2014 letter, the
Board denied this request and explained its reasoning
for doing so, citing to appropriate law and regulation.
The March 2016 brief does not contain any new argument and/or evidence supporting the assigning of the
earlier docket number; therefor, the request need not
be addressed a second time Further, as this is a CUE
claim, any grant of beneﬁts would be retroactive to the
original date of claim. There is also no reason for the
instant matter to be remanded to the RO. As such,
there would be no additional beneﬁt to the Veteran in
assigning the previous docket number.
The Board has reviewed the physical claims ﬁle and
both the Veterans Benefits Management System (VBMS)
and the “Virtual VA” ﬁles so as to insure a total review
of the evidence.
FINDINGS OF FACT
1. A claim seeking service connection for an acquired
psychiatric disability was received by VA in July 1974.
2. A September 18, 1974, RO rating decision denied
service connection for the acquired psychiatric disabilities of anxiety reaction with depressive features and
an immature personality disorder, which subsequently
became ﬁnal.

App. 51
3. The evidence has not established, without debate,
that the correct facts, as then known, were not before
the RO at the time of the September 18, 1974 rating
decision, or that the RO incorrectly applied the applicable laws and regulations existing at the time.
CONCLUSION OF LAW
The September 18, 1974 rating decision denying service connection for an acquired psychiatric disability was not clearly and unmistakably erroneous. 38
U.S.C.A. § 5109A (West 2014); 38 C.F.R. § 3.105 (2015)
REASONS AND BASES FOR
FINDINGS AND CONCLUSION
Duties to Notify and Assist
The Veterans Claims Assistance Act of 2000 (VCAA)
enhanced VA’s duty to notify and assist claimants in
substantiating their claims for VA beneﬁts. 38 U.S.C.A.
§§ 5100, 5102, 5103, 5103A, 5107, 5126 (West 2014); 38
C.F.R. §§ 3.102, 3.156(a), 3.159, 3.326(a) (2014). 9 $ ‘10
duties to notify and assist claimants under the VCAA
do not apply to claims alleging CUE. Parker v. Principi,
15 Vet. App. 407 (2002); Livesay v. Principi, 15 Vet. App.
165, 179 (2001) (en banc). Therefore, no further discussion of VCAA duties to notify or assist will take place
regarding the CUE issue.

App. 52
Whether Clear and Unmistakable Error was
Present in the September 18, 1974 Rating Decision
Previous determinations that are ﬁnal and binding, including decisions of service connection and other matters, will be accepted as correct in the absence of CUE.
Where evidence establishes such error, the prior rating
decision will be reversed or amended. For the purpose
of authorizing beneﬁts, the rating or other adjudicatory decision which constitutes a reversal of a prior decision on the grounds of CUE has the same effect as if
the corrected decision had been made on the date of the
reversed decision. 38 C.F.R. § 3.105(a).
CUE is a very speciﬁc and rare kind of “error.” It is the
kind of error, of fact or of law, that when called to the
attention of later reviewers compels the conclusion, to
which reasonable minds could not differ, that the result would have been manifestly different but for the
error. Simply to claim CUE on the basis that previous
adjudications had improperly weighed and evaluated
the evidence can never rise to the stringent deﬁnition
of CUE. Similarly, neither can broad-brush allegations
of “failure to follow the regulations” or “failure to give
due process,” or any other general, nonspeciﬁc claim of
“error.” Fugo v. Brown, 6 Vet. App. 40, 43-44 (1993). In
addition, failure to address a speciﬁc regulatory provision involves harmless error unless the outcome would
have been manifestly different. Id. at 44.
The Court has held that there is a three-pronged test
to determine whether CUE is present in a prior determination: (1) “[e]ither the correct facts, as they were

App. 53
known at the time, were not before the adjudicator (i.e.,
more than a simple disagreement as to how the facts
were weighed or evaluated) or the statutory or regulatory provisions extant at the time were incorrectly applied,” (2) the error must be “undebatable” and of the
sort “which, had it not been made, would have manifestly changed the outcome at the time it was made,”
and (3) a determination that there was CUE must be
based on the record and law that existed at the time of
the prior adjudication in question. Damrel v. Brown, 6
Vet. App. 242, 245 (1994) (quoting Russell v. Principi, 3
Vet. App. 310, 313-14 (1992) (en banc)).
If a veteran wishes to reasonably raise a claim of CUE,
there must be some degree of speciﬁcity as to what the
alleged error is and, unless it is the kind of error that,
if true, would be CUE on its face, persuasive reasons
must be given as to why one would be compelled to
reach the conclusion, to which reasonable minds could
not differ, that the result would have been manifestly
different but for the alleged error. Bustos v. West, 179
F.3d 1378, 1381 (Fed. Cir. 1999), cert. denied, 528 U.S.
967 (1999); Fugo, 6 Vet. App. at 43-44. If the error alleged is not the type of error that, if true, would be CUE
on its face, if the veteran is only asserting disagreement with how the RO evaluated the facts before it, or
if the veteran has not expressed with speciﬁcity how
the application of cited laws and regulations would dictate a “manifestly different” result, the claim must be
denied or the appeal to the Board terminated because
of the absence of legal merit or the lack of entitlement
under the law. Luallen v. Brown, 8 Vet. App. 92 (1995);

App. 54
Caffrey v. Brown, 6 Vet. App. 377, 384 (1994).) Further,
VA’s failure in the duty to assist cannot constitute
CUE. See Cook v. Principi, 318 F.3d 1334, 1346 (Fed.
Cir. 2003).
In the present case, the Veteran alleges CUE in a prior
September 18, 1974 RO rating decision that denied
service connection for various acquired psychiatric
disabilities. As an initial matter, the Board finds the
allegations of CUE made by the Veteran and representative are adequate to meet the threshold pleading
requirements. See Simmons v. Principi, 17 Vet. App.
104 (2003); Phillips v. Brown, 10 Vet. App. 25 (1997)
(distinguishing denial of CUE due to pleading deﬁciency and denial of CUE on merits). Additionally, the
Veteran was notiﬁed of the September 18, 1974 rating
decision through a September 24, 1974 correspondence. The Veteran ﬁled a notice of disagreement (NOD)
to the denial and a SOC was issued in November 1974.
The Veteran did not perfect the appeal and it became
ﬁnal. 38 U.S.C.A. § 7105 (West 1972).
Evidence of record at the time of the September 1974
RO rating decision included service treatment records,
post-service treatment records, and an August 1974 VA
mental health examination. The Veteran’s August
1968 service entrance examination reflects no psychiatric disability at service entrance. An April 1969
service treatment record noted that the Veteran was
treated after an attempted suicide. At that time, the
Veteran was diagnosed with “depressive reaction.” In
a corresponding April 1969 service treatment record,

App. 55
the Veteran was diagnosed with “situational depression.”
Subsequently, the Veteran received an in-service mental health examination. The report reﬂects that at the
time of the suicidal action the Veteran was in “acute
emotional distress.” It was also noted that the Veteran
had advanced frequent feelings of depression. The Veteran further conveyed having increased nervousness,
insomnia, and crying spells Upon examination the Veteran’s mood was depressed. At the conclusion of the examination, the Veteran was diagnosed with “immature
personality” and it was recommended that the Veteran
be given an administrative discharge. The report from
the January 1970 administrative discharge medical
examination states that the Veteran was mentally normal at separation from service.
In a January 1970 employment application, completed
soon after service separation, the Veteran denied
symptoms of depression, excessive worry, and/or nervousness. The Veteran also denied receiving medical
treatment for any condition other than minor aches
and pains for the previous ﬁve years. While VA received multiple treatment records for the period from
1971 to 1974, none reﬂected treatment for a mental
health disorder. A June 1974 letter from a private physician noted that “it is a reasonable presumption that
the illness manifested as mental depression during
[service] is the same illness now being manifested as
arthritis involving multiple joints.”

App. 56
The Veteran received a VA psychiatric examination in
August 1974. The examination report reﬂects that the
Veteran advanced feeling tense and nervous when stationed overseas onboard a ship. After separation from
service, the Veteran conveyed getting along alright, but
also having a little nervousness at times Then, in 1971,
the Veteran was diagnosed with rheumatoid arthritis.
Subsequently, the Veteran began to regularly feel nervous and shaky. Upon examination it was noted that the
Veteran appeared mildly depressed and moderately
tense. At the conclusion of the examination, the VA examiner diagnosed the Veteran with anxiety reaction
with depressive features, and opined that the psychiatric disability was secondary to the diagnosed arthritic condition.
Per the September 18, 1974 RO rating decision, the issue of service connection for “polyarthritis variously diagnosed rheumatoid arthritis” was denied. As the VA
examiner at the August 1974 VA mental health examination had found that the currently diagnosed anxiety
reaction with depressive features, the only mental
health disability diagnosed at that time, was secondary to the arthritis disability, service connection for the
mental health disability was also denied. Further, the
RO found that service connection for an immature personality disorder could not be granted as it was a constitutional or developmental abnormality that was not
a disability under the law.
As discussed above, to reasonably raise a claim of CUE
there must be some degree of speciﬁcity as to what the
alleged error is unless it is the kind of error that, if

App. 57
true, would be CUE on its face. The Veteran argues, as
will be addressed below, that the RO erred in failing
to appropriately apply 38 C.F.R. § 3.303(b) (1974), 38
U.S.C.A. § 105(a) (West 1972), and 38 U.S.C.A. § 1111
(previously 38 U.S.C.A. § 311) (West 1972) in the denial
of service connection for an acquired psychiatric disorder in the September 18, 1974 RO rating decision.
Per the September 18, 1974 RO rating decision, as to
the issue of service connection for an acquired psychiatric disorder, the RO 1) denied service connection for
anxiety reaction with depressive features on a direct
and, as will be addressed below, presumptive basis, and
2) denied service connection for immature personality
as “a constitutional or developmental abnormality and
not a disability under the law.”
With respect to personality disorders, such as an immature personally, congenital or developmental abnormalities are not “diseases or injuries within the
meaning of applicable legislation” and, hence, do not
constitute disability for VA compensation purposes. 38
C.F.R. §§ 3.303(c), 4.9 (1974). However, service connection may be granted, in limited circumstances, for
disability due to aggravation of a constitutional or developmental abnormality by superimposed disease or
injury. See VAOPGCPREC 82-90, 55 Fed. Reg. 45,711
(1990); Carpenter v. Brown, 8 Vet. App. 240, 245 (1995);
Monroe v. Brown, 4 Vet. App. 513, 514-15 (1993).
Here, the Veteran has offered no argument that the RO
made an error of fact or law in applying 38 C.F.R.
§ 3.303(c) and 38 C.F.R. § 3.303(c) and 38 C.F.R. § 4.9

App. 58
to ﬁnd that the Veteran’s in-service diagnosis of immature personality was a personality disorder not subject
to service connection under the law. Even assuming,
arguendo, that the RO did err in its application of
38 C.F.R. § 3.303(b), 38 U.S.C.A. § 105(a), and/or 38
U.S.C.A. § 1111, service connection would still have
been barred under 38 C.F.R. § 3.303(c) and 38 C.F.R.
§ 4.9; therefore, it cannot be said that any error under
38 C.F.R. § 3.303(b), 38 U.S.C.A. § 105(a), and/or 38
U.S.C.A. § 1111 would have manifestly changed the
outcome as to the denial of service connection for an
immature personality disorder. Absent any argument
from the representative that the RO erred in its application of 38 C.F.R. § 3.303(c) and 38 C.F.R. § 4.9, CUE
has not been showed in the September 18, 1974 RO
rating decision as to the issue of service connection for
the acquired psychiatric disorder of immature personality disorder. Damrel, 6 Vet. App. at 245; Fugo, 6 Vet.
App. at 43-44.
Further, as to the personality disorder issue, the fact
pattern of the instant matter is strikingly similar to
that found in Morris v. Shinseki, 678 F.3d 1346 (Fed
Cir. 2012). There, the veteran, who was represented by
the same representative as the Veteran in the instant
matter, argued the following:
Mr. Morris hinges his CUE claim on the argument that, in the 1988 Board Decision, the
Board incorrectly applied 38 C.F.R. § 3.303(c)
and that the 2008 Board Decision and the decision of the Veterans Court now on appeal
continued the error. His argument essentially

App. 59
is as follows: It is true that under § 3.303(c)
a disability attributable to a personality disorder is not compensable. Reply Br. at 2.
However, under 38 U.S.C. § 1111, a veteran
claiming disability compensation under 38
U.S.C. § 1110 is entitled to a presumption that
he was in sound condition when he entered
service. Thus, even when the record contains
an in-service diagnosis of a personality disorder, in order to have that diagnosis defeat a
claim for compensation under § 1110, the VA
must rebut the presumption of sound condition under § 1111. According to Mr. Morris, if,
as here, “no pre-service disability was noted,
. . . the VA must in accordance with the presumption of sound condition show by clear
and unmistakable evidence that the condition
noted during service was a pre-service disability.” Claimant’s Br. at 12. That this requirement exists, Mr. Morris contends, is supported
by the language of § 3.303(c), id. at 1014, and
the interpretation of § 3.303(c) set forth in two
VA General Counsel opinions, id. at 14-19.
Thus, Mr. Morris argues, the Board erred
when it interpreted § 3.303(c) to mean that
the in-service diagnosis of a personality disorder in and of itself was enough to defeat Mr.
Morris’s claim of a psychiatric disorder. Rather, the VA should have been required to
demonstrate afﬁrmatively that the personality disorder existed prior to service. In short,
we understand Mr. Morris to be saying the following: I recognize that a personality disorder
is not a compensable disability. I also recognize that, in my case, the record shows an

App. 60
in-service diagnosis of a personality disorder. However, before that diagnosis could
serve to disqualify me from compensation,
the VA should have been required to overcome § 1111’s presumption of soundness by
demonstrating that I had a personality disorder when I entered the service.
Id. at 1351-52.
After reviewing the relevant law and regulation, the
United States Court of Appeals for the Federal Circuit
(Federal Circuit) found that the Board had not erred in
its previous 1988 decision denying service connection
for a personality disorder, as it fell outside the scope
of the applicable legislation and was not compensable
under 38 C.F.R. § 3.303(c). Id. at 1353. In addressing
the veteran’s presumption of soundness argument, the
Federal Circuit held that 38 U.S.C.A. § 1111 only
grants veterans a statutory presumption of soundness
for “injuries” and “diseases,” and that when a valid VA
regulation such as 38 C.F.R. § 3.303(c) designates
something as not an injury or disease, the presumption
of soundness does not come into play. Id. at 1354. As
such, there, as in the instant matter, according to the
express language of 38 C.F.R. § 3.303(c), personality
disorders are not diseases or injuries within the meaning of 38 U.S.C.A. § 1110, are not compensable, and it
was not CUE to ﬁnd the presumption of soundness as
inapplicable to the case at hand. Id. at 1356.
As the Board has found no CUE in the denial of service
connection for an immature personality disorder, the
remainder of this decision will address possible CUE

App. 61
in the RO’s denial of the acquired psychiatric disorder
of anxiety reaction with depressive features. First, the
Veteran has argued that at the time of the September
18, 1974 RO rating decision the RO failed to consider
the applicability 38 C.F.R. § 3.303(b). At the time of the
RO rating decision, 38 C.F.R. § 3.303(b) provided then,
as now, that service connection will be presumed where
there are either chronic symptoms shown in service or
continuity of symptomatology since service for diseases identiﬁed as “chronic” in 38 C.F.R. § 3.309(a).
With a chronic disease shown as such in service, subsequent manifestations of the same chronic disease at
any later date, however remote, are service connected,
unless clearly attributable to intercurrent causes. 38
C.F.R. § 3.303(b). Further, where a veteran served
ninety days or more of active service, and a chronic disease becomes manifest to a degree of 10 percent or
more within one year after the date of separation from
such service, such disease shall be presumed to have
been incurred in service, even though there is no evidence of such disease during the period of service. 38
C.F.R. §§ 3.307, 3.309(a) (1974).
In Walker v. Shinseki, the Federal Circuit held that the
theory of continuity of symptomatology can be used
only in cases involving those conditions explicitly recognized as chronic under 38 C.F.R. § 3.309(a). Walker
v. Shinseki, 708 F.3d 1331 (Fed. Cir. 2013). At the time
of the September 18, 1974 RO rating decision, none of
the previously diagnosed acquired psychiatric disorders of record constituted a chronic disease under 38
C.F.R. § 3.309(a). As such, there was no need for the RO

App. 62
to consider presumptive service connection pursuant
to 38 C.F.R. § 3.303(b).
Even if the RO were required to consider entitlement
to service connection under 38 C.F.R. § 3.303(b), the
September 18, 1974 RO rating decision reﬂects that
the RO did consider whether presumptive service connection was warranted. Speciﬁcally, the RO noted that,
per the August 1974 VA mental health examination,
the Veteran was currently diagnosed with the mental
health disability of anxiety reaction with depressive
features, which was secondary to the Veteran’s arthritic condition. As the mental health disability was
caused by the arthritis, the RO then considered
whether the arthritis, which is a chronic disability under 38 C.F.R. § 3.309(a), was presumptively related to
service.
In determining whether presumptive service connection was warranted, the RO, in September 1974, discussed the extensive medical records received since the
Veteran’s separation from service in January 1970,
and noted that the evidence reﬂected that the arthritis
disability did not manifest until on or about December
1971, over a year after service separation. While the
RO did not speciﬁcally discuss 38 C.F.R. § 3.303(b), the
fact the RO considered whether the arthritis manifested within one year of service separation reﬂects
that the RO considered whether service connection
was warranted presumptively, and–even if 3.303(b) criteria applied–the evidence does not show “chronic”
symptoms in service (see April 1969 service treatment
records diagnosing transient depressive symptoms

App. 63
and January 1970 service separation examination
reflecting no mental health disability at service separation) or “continuous” post-service symptoms (see
January 1970 employment application; negative treatment records from 1971 to 1974) to meet the 3.303(b)
criteria. In light of the above, the Board ﬁnds that 38
C.F.R. § 3.303(b) was not incorrectly applied such that
the outcome of the claim would have been manifestly
different but for the error as to the issue of service connection for an acquired psychiatric disorder.
The Board notes that VA received a private opinion
dated June 1974. In it, a private physician opined
that it was likely that the Veteran’s mental health
manifestations in service were symptoms of a subsequently diagnosed arthritis disability. Even if this
were to constitute evidence of possible “chronic” symptoms in service and/or “continuous” symptoms since
service separation, the September 1974 RO rating decision reﬂects that the RO found the other evidence of
record weighed in favor of a ﬁnding of post-service onset. A disagreement as to how the facts were weighed
or evaluated is not the type of situation that rises to
the level of clear and unmistakable error. Russell, 3
Vet. App. at 313 (“The claimant, in short, must assert
more than a disagreement as to how the facts were
weighed or evaluated.”).
The Veteran has also argued that the RO failed to
consider and apply the statutory presumptions under 38 U.S.C.A. §§ 105(a) and 1111. In multiple briefs
throughout the course of this appeal, the Veteran
and representative have alleged that symptoms,

App. 64
manifestations, and diagnoses during service of a
mental health disorder should have triggered VA’s
consideration of the presumption of service connection under 38 U.S.C.A. § 105(a). The Veteran further
contended having entitlement to the benefit of presumption of soundness under 38 U.S.C.A. § 1111, as no
pre-existing mental health disorder was noted on the
service entrance examination. The Veteran also alleged that evidence of record extant at the time was
legally insufﬁcient to rebut the presumption of soundness and did not contain clear and unmistakable evidence that the moving party had a pre-existing mental
health disorder that was not aggravated by such service. It is contended that had the Board correctly applied the extant statutory or regulatory provisions, the
outcome would have been manifestly different and the
moving party would have been granted service connection for the resulting post-service psychiatric disability, then diagnosed as anxiety reaction with depressive
features, based on presumptive statutory provisions.
Concerning service connection on a direct basis, the
pertinent laws and regulations at the time of the September 1974 rating decision, including 38 C.F.R.
§§ 3.303(a) and 3.303(d), were essentially the same as
now. Service connection may be granted for disability
arising from disease or injury incurred in or aggravated by active service. 38 C.F.R. § 3.303(a) (1974).
Service connection may be granted for any disease diagnosed after discharge, when all the evidence, including that pertinent to service, establishes that the
disease was incurred in service. 38 C.F.R. § 3.303(d)

App. 65
(1974). As a general matter, service connection for a
disability requires evidence of: (1) the existence of a
current disability; (2) the existence of the disease or
injury in service, and; (3) a relationship or nexus between the current disability and any injury or disease
during service. Shedden v. Principi, 381 F.3d 1163 (Fed.
Cir. 2004); see also Hickson v. West, 12 Vet. App. 247,
253 (1999), citing Caluza v. Brown, 7 Vet. App. 498, 506
(1995), aff ’d, 78 F.3d 604 (Fed. Cir. 1996).
A veteran will be considered to have been in sound condition when examined, accepted, and enrolled for service, except as to defects, inﬁrmities, or disorders noted
at entrance into service, or where clear and unmistakable evidence demonstrates that an injury or disease
existed prior thereto and was not aggravated by service. 38 U.S.C.A. § 1111 (formally 38 U.S.C.A. § 311).
Only such conditions as are recorded in examination reports are to be considered as noted. 38 C.F.R.
§ 3.304(b) (1974) (citing to 38 U.S.C.A. § 311).
Where such defects, infirmities or disorders are not
noted when examined, accepted, and enrolled for service, pursuant to 38 U.S.C.A. § 1111 and 38 C.F.R.
§ 3.304, in order to rebut the presumption of soundness on entry into service, VA must show by clear and
unmistakable evidence both that the disease or injury
existed prior to service and that the disease or injury
was not aggravated by service. See Wagner v. Principi,
370 F.3d 1089 (Fed. Cir. 2004).
The Board notes that at the time of the September 1974
RO rating decision, the law concerning pre-existing

App. 66
conditions made distinctions based upon war and
peacetime service. As the Veteran had wartime service,
this former distinction has no impact on the instant
matter. Further, the Board notes that Wagner was decided in 2004; however, the Board need not address
issues of retroactivity, or any other issue concerning
the presumption of soundness, for, as will be discussed
below, in this matter the Veteran’s representative is
attempting to turn what has always been a direct service connection matter under 38 C.F.R. § 3.303(a), (d)
into one for aggravation/preexistence in order to invoke the higher (clear and unmistakable evidence)
burden on VA under 38 U.S.C.A. § 1111 and 38 C.F.R.
§ 3.304.
The Board ﬁnds that the September 18, 1974 RO rating decision is consistent with 38 C.F.R. § 105(a) and
the applicable laws and regulations extant at that
time. In evaluating the medical evidence, the RO gave
signiﬁcant weight to the August 1974 VA mental
health examination in which a VA examiner opined
that the currently diagnosed mental disability of anxiety reaction with depressive features was caused by a
non-service-connected arthritis disability. As the Veteran was not service connected for an arthritis disability, and as there was no evidence of record indicating
that the anxiety reaction with depressive features may
have been related to the Veteran’s in-service mental
health symptoms, service connection was denied.
As stated above, the Veteran’s argument is that service
connection for the anxiety reaction with depressive
features should have been granted because there were

App. 67
symptoms and manifestations of a mental disorder
during service, speciﬁcally, the diagnosed “depressive
reaction” and “situational depression.” In essence the
Veteran is really disagreeing with the weight accorded
the evidence of record by the RO. A disagreement as to
how the facts were weighed or evaluated is not the type
of situation that rises to the level of clear and unmistakable error. Russell, 3 Vet. App. at 313 (“The claimant, in short, must assert more than a disagreement as
to how the facts were weighed or evaluated.”).
In order to obtain the beneﬁt of the 38 C.F.R. § 105 presumption of service connection, the evidence must ﬁrst
demonstrate that there is a mental health disability
incurred in service. Shedden, 381 F.3d at 1167. The
mere presence of symptoms in service, in and of itself,
overlooks the fact that medical evidence of record included an opinion that the diagnosed mental disability
of anxiety reaction with depressive features was secondary to a non-service-connected arthritis disability.
The presumption of 38 U.S.C.A. § 105 did not apply, so
there was no CUE on the part of the Board in denying
the claim. Id.
As to the Veteran’s ﬁnal argument, as noted above, under 38 U.S.C.A. § 1111, now and at the time of the September 1974 RO rating decision, every veteran is
presumed to have been in sound condition when enrolled in service except as to defects, infirmities, or
disorders, noted at the time of enrollment, or where
clear and unmistakable evidence demonstrates that
the injury or disease existed before enrollment and
was not aggravated by such service. 38 U.S.C.A. § 1111

App. 68
(formerly 38 U.S.C.A. § 311). There appears to be no
controversy, other than that now advanced by the Veteran’s representative, between the Veteran’s contention of entitlement to the presumption of soundness
and the September 18, 1974 RO rating decision.
The September 18, 1974 RO rating decision did not
raise the issue of presumption of soundness and/or discuss preexistence under 38 U.S.C.A. § 1111 as the decision was a direct service connection denial under 38
C.F.R. § 3.303(a), (d), and the RO did not need to make
a ﬁnding that a non-personality psychiatric disorder
preexisted service. As there was no ﬁnding of preexistence to service, 38 U.S.C.A. § 1111 and 38 C.F.R.
§ 3.304 are not applicable; therefore, as the RO never
applied 38 U.S.C.A. § 1111/38 C.F.R. § 3.304 against
the claim, this argument is meritless.
The case before the RO in 1974 did not raise application of the presumption of soundness. This is not
an aggravation case and preexistence of a psychiatric
disorder was not raised by the evidence and was not
decided by the RO in September 1974. The representative’s argument is an attempt to have the extremely
high burden on VA (of clear and unmistakable evidence to prove non-aggravation) of 38 U.S.C.A. § 1111/
38 C.F.R. § 3.304 applied to this direct service connection case where preexistence of a disability is not at
issue. The fact that the diagnosis of a personality disorder shows that the disorder inherently preexisted
service is controlled by the personality disorder regulations (VAOPGCPREC 82-90; 38 C.F.R. §§ 3.303(c), 4.9).
The representative’s arguments that a personality

App. 69
disorder were not “noted” at service entrance are irrelevant to this direct service connection case, and arguing that noting is required when it is not does not
convert the case from one for direct service connection
(whether the disorder was directly incurred in service,
applying 38 C.F.R. § 3.303(a) and (d)) to one for preexistence and aggravation under 38 U.S.C.A. § 1111 and
38 C.F.R. § 3.304.
Further, even assuming, arguendo, that 38 U.S.C.A.
§ 1111 and 38 C.F.R. § 3.304 did apply to the instant
matter and VA could not meet the high burden to rebut
the presumption of soundness, all that would happen
is that the claim would become one for direct service
connection under 38 C.F.R. § 3.303, and the analysis
would be exactly the same as it was in the September
1974 RO rating decision. See Wagner v. Principi, 370
F.3d 1089, 1096 (Fed. Cir. 2004) (explaining that, if VA
fails to rebut the presumption of soundness under 38
U.S.C.A. § 1111, the veteran’s claim is one for service
connection). In other words, the RO in 1974 still would
have relied on the medical evidence of record at that
time and the August 1974 VA examination to ﬁnd that
the anxiety reaction with depressive features was secondary to the Veteran’s arthritic condition, which was
not incurred in service. As such, the Veteran’s argument again boils down to a simple disagreement with
the way the facts were weighed by the RO, which, as
discussed above, is not CUE, whether the higher burden of 38 U.S.C.A. § 1111/38 C.F.R. § 3.304 is applied
or not. Russell, 3 Vet. App. at 313 (“The claimant, in

App. 70
short, must assert more than a disagreement as to how
the facts were weighed or evaluated.”).
In sum, the Veteran has failed to demonstrate that the
September 18, 1974 RO rating decision misapplied, or
failed to apply, any applicable law or VA regulation, or
that the decision otherwise contained CUE. The arguments of the Veteran and representative concerning
the purported failure of the Board to properly apply
extant law and regulations are without merit. The
other arguments of the Veteran and representative
boil down to allegations that the RO in 1974 improperly weighed the evidence of record in denying the
claim; such allegations can never rise to the level of
CUE. Id. Moreover, the Veteran has not offered an explanation as to how the outcome would have been manifestly different but for the errors claimed, other than
to state, rather unpersuasively, that the outcome
would have been manifestly different if only the Board
had favorably considered the evidence supporting the
claim under 38 U.S.C.A. §§ 105(a) and 1111 (formerly
311), and/or 38 C.F.R. § 3.303(b). The Board emphasizes that to demonstrate CUE in a Board decision, it
must be clear that a different result would have ensued
but for the claimed error or errors. Bustos, 179 F.3d at
1381, cert. denied, 528 U.S. 967 (1999); Fugo, 6 Vet. App.
at 43-44.
For the reasons discussed above, neither the Veteran,
representative, nor the record reveals an error of fact
or law on the part of the RO that, had it not occurred,
would have supported a different outcome. For these

App. 71
reasons, CUE is not shown. Damrel, 6 Vet. App. at 245;
Fugo, 6 Vet. App. at 43-44.
ORDER
The September 18, 1974 RO rating decision denying
service connection for an acquired psychiatric disorder
was not clearly and unmistakably erroneous.
J. PARKER
Veterans Law Judge,
Board of Veterans’ Appeals

App. 72
APPENDIX D
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

RICHARD D. SIMMONS,
Claimant-Appellant
v.
ROBERT WILKIE,
SECRETARY OF VETERANS AFFAIRS,
Respondent-Appellee
-----------------------------------------------------------------------

2019-1519
-----------------------------------------------------------------------

Appeal from the United States Court of Appeals
for Veterans Claims in No. 16-3039, Chief Judge Margaret C. Bartley, Judge Michael P. Allen, Senior Judge
Robert N. Davis.
-----------------------------------------------------------------------

ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
-----------------------------------------------------------------------

App. 73
Before PROST, Chief Judge, NEWMAN, LOURIE,
CLEVENGER*, DYK, MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN, HUGHES, and STOLL, Circuit
Judges.
PER CURIAM.
ORDER
Appellant Richard D. Simmons ﬁled a combined
petition for panel rehearing and rehearing en banc.
The petition was referred to the panel that heard the
appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issues on October 8,
2020.
FOR THE COURT
October 1, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

* Circuit Judge Clevenger participated only in the decision
on the petition for panel rehearing.

App. 74
APPENDIX E
Not published
NON-PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR VETERANS CLAIMS
No. 16-3039
RICHARD D. SIMMONS,

APPELLANT,
v.

ROBERT L. WILKIE,
SECRETARY OF VETERANS AFFAIRS,

APPELLEE.

Before DAVIS, Chief Judge, and
BARTLEY and ALLEN, Judges.
ORDER
Note: Pursuant to U.S. Vet. App. R. 30(a),
this action may not be cited as precedent.
On September 20, 2018, in a panel decision, the
Court afﬁrmed the May 13, 2016, Board of Veterans'
Appeals decision that found that a September 1974 regional ofﬁce rating decision denying service connection
for an acquired psychiatric disorder did not contain
clear and unmistakable error. On October 10, 2018, the
appellant ﬁled a timely motion for reconsideration. “[A]
motion for . . . panel [reconsideration] . . . shall state
the points of law or fact that the party believes the
Court has overlooked or misunderstood.” U.S. VET. APP.
R. 35(e)(1). The Court did not overlook or misunderstand any points of law or fact that was properly before

App. 75
it. The appellant has not presented any argument that
warrants reconsideration by the panel.
Upon consideration of the foregoing, it is
ORDERED that the motion for reconsideration by
the panel is denied.
DATED: November 2, 2018
Copies to:
Kenneth M. Carpenter, Esq.
VA General Counsel (027)

PER CURIAM.

App. 76
APPENDIX F
RELEVANT STATUTES AND REGULATIONS
5 U.S.C. § 706 (2020). Scope of review
To the extent necessary to decision and when presented, the reviewing court shall decide all relevant
questions of law, interpret constitutional and statutory
provisions, and determine the meaning or applicability
of the terms of an agency action. The reviewing court
shall –
(1) compel agency action unlawfully withheld or
unreasonably delayed; and
(2) hold unlawful and set aside agency action,
ﬁndings, and conclusions found to be –
(A) arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law;
(B) contrary to constitutional right, power,
privilege, or immunity;
(C) in excess of statutory jurisdiction, authority, or limitations, or short of statutory right;
(D) without observance of procedure required by law;
(E) unsupported by substantial evidence in
a case subject to sections 556 and 557 of this title
or otherwise reviewed on the record of an agency
hearing provided by statute; or
(F) unwarranted by the facts to the extent
that the facts are subject to trial de novo by the
reviewing court.

App. 77
In making the foregoing determinations, the court
shall review the whole record or those parts of it cited
by a party, and due account shall be taken of the rule
of prejudicial error.

38 U.S.C. § 105 (1970). Line of duty and misconduct
(a) An injury or disease incurred during active
military, naval, or air service will be deemed to have
been incurred in line of duty and not the result of the
veteran’s own misconduct when the person on whose
account beneﬁts are claimed was, at the time the injury was suffered or disease contracted, in active military, naval, or air service, whether on active duty or on
authorized leave, unless such injury or disease was the
result of his own willful misconduct. Venereal disease
shall not be presumed to be due to willful misconduct
if the person in service complies with the regulations
of the appropriate service department requiring him to
report and receive treatment for such disease.
(b) The requirement for line of duty will not be
met if it appears that at the time the injury was suffered or disease contracted the person on whose account beneﬁts are claimed (1) was avoiding duty by
deserting the service, or by absenting himself without
leave materially interfering with the performance of
military duties; (2) was conﬁned under sentence of
court-martial involving an unremitted dishonorable
discharge; or (3) was conﬁned under sentence of a civil
court for a felony (as determined under the laws of the

App. 78
jurisdiction where the person was convicted by such
court).

38 U.S.C. § 311 (1970). Presumption of sound condition
For the purposes of section 310 of this title, every
veteran shall be taken to have been in sound condition
when examined, accepted, and enrolled for service, except as to defects, inﬁrmities, or disorders noted at the
time of the examination, acceptance, and enrollment,
or where clear and unmistakable evidence demonstrates that the injury or disease existed before acceptance and enrollment and was not aggravated by
such service.

38 U.S.C. § 1110 (2020). Basic entitlement
For disability resulting from personal injury suffered or disease contracted in line of duty, or for aggravation of a preexisting injury suffered or disease
contracted in line of duty, in the active military, naval,
or air service, during a period of war, the United States
will pay to any veteran thus disabled and who was discharged or released under conditions other than dishonorable from the period of service in which said
injury or disease was incurred, or preexisting injury or
disease was aggravated, compensation as provided in
this subchapter, but no compensation shall be paid if

App. 79
the disability is a result of the veteran’s own willful
misconduct or abuse of alcohol or drugs.

38 U.S.C. § 5107 (2020). Claimant responsibility;
benefit of the doubt
(a) CLAIMANT RESPONSIBILITY. – Except as otherwise provided by law, a claimant has the responsibility
to present and support a claim for beneﬁts under laws
administered by the Secretary.
(b) BENEFIT OF THE DOUBT. – The Secretary shall
consider all information and lay and medical evidence
of record in a case before the Secretary with respect to
beneﬁts under laws administered by the Secretary.
When there is an approximate balance of positive and
negative evidence regarding any issue material to the
determination of a matter, the Secretary shall give the
beneﬁt of the doubt to the claimant.

38 U.S.C. § 5109A (2020). Revision of decisions on
grounds of clear and unmistakable error
(a) A decision by the Secretary under this chapter is subject to revision on the grounds of clear and
unmistakable error. If evidence establishes the error,
the prior decision shall be reversed or revised.
(b) For the purposes of authorizing beneﬁts, a
rating or other adjudicative decision that constitutes a
reversal or revision of a prior decision on the grounds

App. 80
of clear and unmistakable error has the same effect as
if the decision had been made on the date of the prior
decision.
(c) Review to determine whether clear and unmistakable error exists in a case may be instituted by
the Secretary on the Secretary’s own motion or upon
request of the claimant.
(d) A request for revision of a decision of the Secretary based on clear and unmistakable error may be
made at any time after that decision is made.
(e) Such a request shall be submitted to the Secretary and shall be decided in the same manner as any
other claim.

38 U.S.C. § 7261 (2020). Scope of review
*

*

*

(b) In making the determinations under subsection (a), the Court shall review the record of proceedings before the Secretary and the Board of Veterans’
Appeals pursuant to section 7252(b) of this title and
shall –
(1) take due account of the Secretary’s application of section 5107(b) of this title; and
(2)
error.

take due account of the rule of prejudicial
*

*

*

App. 81
38 C.F.R. § 3.105 (2019). Revision of decisions
*

*

*

(a)(1) Error in ﬁnal decisions. Decisions are ﬁnal
when the underlying claim is ﬁnally adjudicated as
provided in § 3.160(d) Final decisions will be accepted
by VA as correct with respect to the evidentiary record
and the law that existed at the time of the decision, in
the absence of clear and unmistakable error. At any
time after a decision is ﬁnal, the claimant may request,
or VA may initiate, review of the decision to determine
if there was a clear and unmistakable error in the decision. Where evidence establishes such error, the prior
decision will be reversed or amended.
(i) Deﬁnition of clear and unmistakable error. A
clear and unmistakable error is a very speciﬁc and rare
kind of error. It is the kind of error, of fact or of law,
that when called to the attention of later reviewers
compels the conclusion, to which reasonable minds
could not differ, that the result would have been manifestly different but for the error. If it is not absolutely
clear that a different result would have ensued, the error complained of cannot be clear and unmistakable.
Generally, either the correct facts, as they were known
at the time, were not before VA, or the statutory and
regulatory provisions extant at the time were incorrectly applied.
(ii) Effective date of reversed or revised decisions.
For the purpose of authorizing beneﬁts, the rating or
other adjudicative decision which constitutes a reversal or revision of a prior decision on the grounds of

App. 82
clear and unmistakable error has the same effect as if
the corrected decision had been made on the date of the
reversed decision. Except as provided in paragraphs
(d) and (e) of this section, where an award is reduced
or discontinued because of administrative error or error in judgment, the provisions of § 3.500(b)(2) will apply.
(iii) Record to be reviewed. Review for clear and
unmistakable error in a prior ﬁnal decision of an
agency of original jurisdiction must be based on the evidentiary record and the law that existed when that
decision was made. The duty to assist in §3.159 does
not apply to requests for revision based on clear and
unmistakable error.
(iv) Change in interpretation. Clear and unmistakable error does not include the otherwise correct application of a statute or regulation where, subsequent
to the decision being challenged, there has been a
change in the interpretation of the statute or regulation.
(v) Limitation on Applicability. Decisions of an
agency of original jurisdiction on issues that have been
decided on appeal by the Board or a court of competent
jurisdiction are not subject to revision under this subsection.
(vi) Duty to assist not applicable. For examples of
situations that are not clear and unmistakable error
see 38 CFR 20.1403(d).

App. 83
(vii) Filing Requirements—(A) General. A request for revision of a decision based on clear and unmistakable error must be in writing, and must be
signed by the requesting party or that party’s authorized representative. The request must include the
name of the claimant; the name of the requesting party
if other than the claimant; the applicable Department
of Veterans Affairs ﬁle number; and the date of the decision to which the request relates. If the applicable decision involved more than one issue, the request must
identify the speciﬁc issue, or issues, to which the request pertains.
(B) Speciﬁc allegations required. The request
must set forth clearly and speciﬁcally the alleged clear
and unmistakable error, or errors, of fact or law in the
prior decision, the legal or factual basis for such allegations, and why the result would have been manifestly different but for the alleged error. Nonspeciﬁc
allegations of failure to follow regulations or failure to
give due process, or any other general, non-speciﬁc allegations of error, are insufﬁcient to satisfy the requirement of the previous sentence.
(2) Error in binding decisions prior to ﬁnal adjudication. Prior to the time that a claim is ﬁnally adjudicated, previous decisions which are binding will be
accepted as correct by the agency of original jurisdiction, with respect to the evidentiary record and law
existing at the time of the decision, unless the decision is clearly erroneous, after considering whether

App. 84
any favorable findings may be reversed as provided in
§ 3.104(c).
*

*

*

38 C.F.R. § 3.156 (2019). New evidence
*

*

*

(a) New and material evidence. For claims to reopen decided prior to the effective date provided in
§ 19.2(a), the following standards apply. A claimant
may reopen a ﬁnally adjudicated legacy claim by submitting new and material evidence. New evidence is
evidence not previously part of the actual record before
agency adjudicators. Material evidence means existing
evidence that, by itself or when considered with previous evidence of record, relates to an unestablished fact
necessary to substantiate the claim. New and material
evidence can be neither cumulative nor redundant of
the evidence of record at the time of the last prior ﬁnal
denial of the claim sought to be reopened, and must
raise a reasonable possibility of substantiating the
claim.
*

*

*

